<html>
<title> - RESOLVING INTERNATIONAL PARENTAL CHILD ABDUCTIONS TO NON-HAGUE CONVENTION COUNTRIES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                    RESOLVING INTERNATIONAL PARENTAL
                     CHILD ABDUCTIONS TO NON-HAGUE
                          CONVENTION COUNTRIES
=======================================================================


                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,

                        GLOBAL HUMAN RIGHTS, AND

                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 9, 2013

                               __________

                           Serial No. 113-58

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
80-801                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Susan Jacobs, Special Advisor for Children's 
  Issues, Bureau of Consular Affairs, U.S. Department of State...     6
Ms. Patricia Apy, Attorney, Paras, Apy & Reiss, P.C..............    37
Ms. Bindu Philips, Mother of Children Abducted to India..........    52
Mr. Michael Elias, Father of Children Abducted to Japan..........    64
Mr. Colin Bower, Father of Children Abducted to Egypt............    74
Mr. David Goldman, Father of Child Abducted to Brazil............    86

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Susan Jacobs: Prepared statement...................     8
Ms. Patricia Apy: Prepared statement.............................    43
Ms. Bindu Philips: Prepared statement............................    55
Mr. Michael Elias: Prepared statement............................    68
Mr. Colin Bower: Prepared statement..............................    79
Mr. David Goldman: Prepared statement............................    94

                                APPENDIX

Hearing notice...................................................   108
Hearing minutes..................................................   109
Written responses from the Honorable Susan Jacobs to questions 
  submitted for the record by the Honorable Christopher H. Smith, 
  a Representative in Congress from the State of New Jersey, and 
  chairman, Subcommittee on Africa, Global Health, Global Human 
  Rights, and International Organizations........................   110
Written responses from the Honorable Susan Jacobs to questions 
  submitted for the record by the Honorable Mark Meadows, a 
  Representative in Congress from the State of North Carolina....   116


                    RESOLVING INTERNATIONAL PARENTAL

                     CHILD ABDUCTIONS TO NON-HAGUE

                          CONVENTION COUNTRIES

                              ----------                              


                         THURSDAY, MAY 9, 2013

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10 o'clock 
a.m., in room 2172 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The committee will come to order, and I want to 
thank all of you for joining us this morning to focus once 
again on the persistent and devastating problem of 
international parental child abduction, which occurs when one 
parent unlawfully moves a child from his or her country of 
residence, often for the purpose of denying the other parent 
access to the child.
    The damage to the child and the left-behind parent is 
incalculable, and often lifelong. The children especially are 
at risk of serious emotional and psychological problems, and 
may experience anxiety, eating problems, nightmares, mood 
swings, sleep disturbances, aggressive behavior, resentment, 
guilt, and fearfulness. These victims are American citizens who 
need the help of their Government when normal legal processes 
are unavailable or failed.
    In 1983, the United States ratified the Hague Convention on 
the Civil Aspects of International Child Abduction to try to 
address this serious issue. This convention creates a civil 
framework for a quick return of abducted children, and for 
rights of access to both parents. Absent extenuating 
circumstances, the child is to be returned within 6 weeks to 
his or her country of habitual residence for the courts there 
to decide on custody, or to enforce any previous custody 
determinations.
    The Convention has helped return many children, but it is 
far from a silver bullet. Even in countries where the 
Convention is allegedly working, only about 40 percent of the 
children are returned. Other cases are ``resolved'' but too 
often with dubious application of the Convention. Susceptible 
to abuse by taking parents or unwilling judges, the Convention 
has too often been stretched to provide cover for the 
abduction, rather than recovery of the child.
    Taking parents have figured out that they can drag out 
hearing after hearing, appeal after appeal, for years, until 
the courts can claim yes, the child should have been returned, 
but that the child has settled in a new country by that point 
and does not have to be returned under an exception in the 
Convention.
    Some Hague Convention signatories are simply not enforcing 
legitimate return orders. The State Department's 2012 Hague 
Convention Compliance Report highlights five countries--
Argentina, Australia, France, the Netherlands, and Romania--for 
failing to enforce return orders. Other countries--Costa Rica, 
Guatemala, the Bahamas, Brazil, and Panama--are non-compliant 
with the Convention, or showing patterns of non-compliance. In 
other words, abducted American children are not coming home 
from these countries, and American families, I would 
respectfully submit, need other options.
    The same is true for many countries that have not signed 
the Hague Convention. In 2012 alone, more than 634 children 
were abducted to countries that have not signed the Hague 
Convention, countries like Japan, Egypt, and India. More than 
300 children have suffered abduction from the United States to 
Japan since 1994. Congress does not know of a single case in 
which the Government of Japan has issued and enforced an order 
for the return of an abducted child to the United States.
    According to the U.S. Department of State's statistics, the 
United States is monitoring 54 ongoing cases involving 74 
children who were abducted from the U.S. to Japan, and 21 
additional children from the United States who may not have 
been abducted, but who are being denied access to their 
American parent. Although Japan has taken steps, including this 
morning, to join the Hague Convention, Japan's ratification 
will not address current cases for return. Moreover, experts 
question whether the ratification includes reservations that 
will make it nearly impossible for even new abduction cases to 
be resolved with returns.
    The United States does not have a bilateral or other 
agreement with Japan to facilitate the return of American 
citizen children who are currently abducted, citizens like Jade 
and Michael Elias, whose father will testify before us today.
    Under the Convention alone, if ratified by Japan, the best 
that American parents of currently abducted children can hope 
for is, perhaps, a visit with their child. Such visits are 
projected to look like 1 hour, once a month, in a secure 
facility. Hardly dignified or unfettered.
    Despite our multi-billion dollar investment in Egypt, 
neither the Mubarak government nor the Morsi government has 
seen fit to return abducted American children Noor and Ramsay 
Bower. They, along with 30 other American children in Egypt, 
are forced to live without half of their culture, half of their 
identity, and without the love and guidance of an American 
parent who fights daily for their return. The United States 
does not have a bilateral agreement with Egypt to facilitate 
the return of American citizen children, and has so far been 
unwilling to make prioritization of these cases a condition for 
the continued funding of the Egyptian Government.
    India has also been a source of immense frustration and 
grief for American parents. In 2012, 32 more children were 
abducted to India, bringing the total number to 78 open 
abduction cases involving 94 children. Although some Indian 
courts make Hague-like decisions to return some children, 
returns are at best uneven. Parents attempting to utilize 
India's courts for the return of abducted children report 
corruption and incessant delays. The United States does not 
have a bilateral agreement with India, either, to facilitate 
the return of American citizen children to the United States.
    In the last Congress, I introduced legislation which we 
entitled the Sean and David Goldman Child Abduction Prevention 
and Return Act, and I will reintroduce it shortly, to impress 
both upon the Hague and non-Hague Convention countries alike 
that the United States will not tolerate abduction or have 
patience with countries that hide abductors behind the Hague 
Convention.
    The bill would empower the President and the Department of 
State with new tools, and I would say necessary tools, and 
authorities, to secure the return of abducted American 
children. When a country has shown a pattern of non-cooperation 
in resolving child abduction cases, the President will be able 
to respond decisively with a range of 18 actions and penalties. 
Based on past experience, particularly with the Goldman case in 
Brazil, we know that penalties manage to get the attention of 
other governments and help them prioritize resolution.
    The bill also calls for the State Department to work out 
memorandums of understanding with countries that have not 
signed the Hague Convention in order to create agreed-upon 
routes to abduction resolution between countries, rather than 
the neverending and torturous maze Americans are currently 
forced to run.
    The status quo, despite best intentions, is simply not 
adequate. And while well-meaning and sincere, current policy 
has failed far too many children and their left-behind and 
brokenhearted parents. To combat the cruelty and exploitation 
of human trafficking, over a decade ago I authored the 
Trafficking Victims Protection Act. To tangibly assist abducted 
American children--and this is a human rights violation--and 
their left-behind parents, I again am introducing the Sean and 
David Goldman Child Abduction Prevention and Return Act of 
2013. The United States can, and I believe must, do more to 
protect innocent American children and their left-behind 
parents from the absolute horrors of international child 
abduction.
    I now turn to my friend and colleague, Mr. Cicilline.
    Mr. Cicilline. Thank you, Chairman Smith, for holding 
today's hearing on a topic that deserves this committee and 
Congress' full attention. Chairman Smith, I also want to 
commend you for your efforts to address this ongoing issue and 
the many challenges to ensuring that abducted children are 
returned to loving, caring and safe homes.
    And while today's hearing is on international child 
abduction, I think it's an important moment to acknowledge the 
extraordinary and harrowing developments of the three young 
women who won their freedom earlier this week in Cleveland. 
These people have endured a horrendous ordeal, and their 
nightmare is now over. We can all breathe a sigh of relief that 
they are back with their families and a new brighter chapter in 
their lives can begin. They will continue to be in our thoughts 
and our prayers.
    I would also like to offer my gratitude to the witnesses 
for their testimony today--I would particularly welcome 
Ambassador Jacobs--and for the important work that is being 
done on this critical subject.
    Today's hearing is vitally important because children who 
have been abducted internationally can experience extreme 
stress and confusion. Not only have they been taken from a 
parent, but they must also live and adapt to a place that is 
foreign to them in many ways. These are terrible events that no 
parent or child should ever have to endure, and as we approach 
International Child Abduction Day on May 25th, I am pleased 
that we are able to address the full complexity of these 
challenges around this issue.
    The complications associated with returning abducted 
children to the United States from countries that are non-
signatories to the Hague Convention are very difficult and 
troublesome, yet not unresolvable, and holding this hearing is 
one step in the right direction. I hope the committee will also 
focus on the occurrence of domestic violence and child abuse in 
child abduction cases. There are many examples where parents 
who flee with a child do so to escape environments that are 
unsafe and, frankly, dangerous. This, too, deserves our 
critical attention and focus.
    I look forward to hearing your thoughts and recommendations 
on resolving international parental child abductions, and I 
thank you again, Mr. Chairman, and would like to yield to my 
colleague----
    Mr. Smith. No, I will yield.
    Mr. Cicilline. Okay. I yield back.
    Mr. Smith. I would like to yield to Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman, for conducting this 
hearing on this important topic. And I want to thank the 
witnesses, obviously, and Ambassador Jacobs, thank you for 
being here. The witnesses that will testify in our second 
panel, we appreciate your willingness to tell your story.
    This seems to be a problem that simply is not addressed by 
current law or policy, and what I look forward to hearing from 
you, Ambassador Jacobs, is, as we start to look at that--we 
know that you are in a difficult situation where you have got 
law, policy, regulations--how we can be the heavy, how Congress 
can be the heavy and say, ``This must stop, and this is the law 
of the land,'' and how we can do that to help facilitate you on 
doing your job. Because obviously you wouldn't be here today if 
you didn't have a heart for these children, and we appreciate 
your willingness to be here.
    We know that as of January, the number of open cases in the 
international parental child abduction in the Office of 
Children's Issues was some 1,113 cases involving some 1,575 
children, and of these cases 649 of them, or 941 of the 
children, were in Hague Convention partner countries. But 
another 464 of those, or 634 children, were in non-Hague 
Convention countries. And so that presents an issue, and 
obviously this means that there is a significant portion of 
these abducted kids who are going to countries where there is 
virtually no ability for them to reach out to their families, 
and for their families to reach them. And this situation is 
just unacceptable.
    We obviously live in a global world, and perhaps a global 
solution is part of this particular issue. But we want to act 
as Congress, and I want to support the chairman in his efforts 
to make sure that we have legislation, and bring and highlight 
the fact that it needs to be addressed. And you know, child 
abduction is really child abuse. And when we see that--we have 
seen the effects of child abuse. And what we cannot do--we have 
a moral obligation to not allow that to happen.
    So I thank the ranking member here today for his 
willingness to join in a bipartisan way to address this issue, 
and I'm hopeful that we can develop some effective solutions 
that not only attack this difficult issue, but puts forward a 
way that we can move forward so that we can reunite these 
families.
    And I thank you, and I yield back, Mr. Chairman.
    Mr. Smith. Thank you very much, Mr. Meadows. I need to go 
to members of the committee first, and then I will go to Mr. 
Kennedy. Mr. Weber, Randy Weber.
    Mr. Weber. Well, thank you, Mr. Chairman. I am good. I am 
really here to listen and to learn. I applaud you, Madam 
Ambassador, for being here, and I look forward to the 
testimony, and being able--as my colleague, Mr. Meadows, said--
to help make a difference. So I am anxious to listen. Thank 
you.
    Mr. Smith. Thank you. The chair recognizes Mr. Kennedy, not 
a member of the committee, but most welcome.
    Mr. Kennedy. Chairman, thank you very much for allowing me 
to speak this morning and join all of you, even though I do not 
sit on this subcommittee. I am honored to welcome Colin Bower, 
a constituent from Newton, and most importantly a devoted 
father to his two sons, Noor and Ramsay. Mr. Bower will be 
joining us on a panel a little bit later this morning.
    As this panel knows, Mr. Bower has worked tirelessly to try 
to bring his two children home to the United States, after they 
were abducted by their mother in 2009. Despite a court ruling 
that gave him full custody and a subsequent Egyptian court 
order granting him the right to visit with his children, Colin 
has continually been denied the opportunity to visit his sons.
    Well, he has never given up hope. We must do more than just 
hope. As elected officials, every person on this dais feels a 
passionate responsibility to help our constituents, and we must 
remain vigilant and committed to all American children who are 
far from home, far from their families, through no fault of 
their own.
    Mr. Chairman, thank you for the opportunity to join you 
today. I look forward to hearing the testimony of Ambassador 
Jacobs and the families later this morning, and to the 
commitment of the members of the panel. Thank you.
    Mr. Smith. Thank you, Mr. Kennedy.
    It is now my privilege and honor to welcome to the 
committee Ambassador Susan Jacobs, who currently serves as 
Special Advisor in the Office of Children's Issues at the U.S. 
Department of State. Ambassador Jacobs has had a long and 
distinguished career in the Foreign Service, in which she has 
served around the world, including in Papua New Guinea, where 
she was the Ambassador. And she has also held a number of 
senior positions with the State Department here in Washington, 
serving as liaison to both Congress and the Department of 
Homeland Security.
    Ambassador Jacobs, the floor is yours.

 STATEMENT OF THE HONORABLE SUSAN JACOBS, SPECIAL ADVISOR FOR 
CHILDREN'S ISSUES, BUREAU OF CONSULAR AFFAIRS, U.S. DEPARTMENT 
                            OF STATE

    Ambassador Jacobs. Thank you, Mr. Chairman. Mr. Chairman, 
distinguished members of the subcommittee, thank you for the 
opportunity to testify again before you on the Department of 
State's efforts to prevent international parental child 
abduction, to resolve existing cases, and to encourage all 
sovereign nations to join the United States in membership in 
the Hague Abduction Convention.
    I would like to speak about the two main points of my 
written statement: The important work of the Bureau of Consular 
Affairs Office of Children's Issues in promoting the Hague 
Abduction Convention and our work in ensuring compliance with 
the Convention. I ask that my full written statement be entered 
into the record.
    Mr. Smith. Without objection, so ordered.
    Ambassador Jacobs. Thank you. The Department of State has 
no higher priority than to safeguard the welfare of children 
who have been wrongfully abducted across international borders. 
My experience over the past few years, as the Special Advisor 
for Children's Issues, has convinced me that the Hague 
Abduction Convention is the best tool for resolving cases of 
international parental child abduction, or IPCA. Of course, the 
prevention of IPCA is our priority as well, and my written 
testimony describes the work of our dedicated officers on this 
front. In those unfortunate circumstances where an abduction 
does take place, we turn to the Convention whenever it is 
available as a possible remedy. This has been the focus of my 
work since Secretary Clinton appointed me in 2010.
    The Hague Convention is a multilateral international treaty 
that allows us, in our highly interconnected world, to work 
harmoniously across cultures, borders, and legal systems. As 
you all know, however, there are many cases involving children 
abducted to countries where the Convention is not an available 
remedy. One of our top priorities is to engage bilaterally and 
multilaterally with those foreign governments to explain why 
the Convention is beneficial and to encourage expanded 
Convention partnership throughout the world.
    Last year, the United States welcomed Singapore and Morocco 
as new treaty partners, and we were pleased to see several 
other nations, including South Korea, Russia, and Lesotho, 
accede to the Convention and take steps to institute effective 
implementation.
    Parents, of course, want to know what we are doing 
specifically to help their children when the Abduction 
Convention is not an option for them to seek their child's 
return. In those cases, unfortunately, the options for seeking 
the return of a child are far more limited, thus underscoring 
why the Convention membership is critical as we move forward.
    The Office of Children's Issues works closely with those 
parents to provide information about domestic and foreign 
resources that may help them to resolve their children's cases. 
We raise individual cases with foreign governments, requesting 
through diplomatic channels that they return abducted children 
to the United States. We assist parents to obtain access, 
confirm their children's welfare, and understand their options. 
We monitor legal proceedings as the case unfolds in the court, 
and we attend hearings when appropriate. We also engage child 
welfare authorities and advocate for counselor and parental 
access.
    In addition, we coordinate with law enforcement authorities 
when parents choose to pursue criminal remedies and work every 
day to explore all available and appropriate options for the 
return of children to their habitual residence.
    In countries where the Convention is available, the Office 
of Children's Issues works to promote Convention compliance. 
Again, we have a variety of tools at our disposal. Among these 
are judicial seminars, legal information and infrastructure 
guidance, and ongoing monitoring as part of the annual 
compliance report to Congress. We follow individual cases very 
closely. We coordinate with parents and their attorneys to 
provide information and updates. We also review judicial 
decisions for compliance.
    But it is important to keep in mind that there are times 
when proper application of the Convention does not result in a 
child's return to the United States. When this happens, we 
stand by to provide parents with information about pursuing 
access to the child under the Convention, as well as providing 
all other appropriate assistance.
    Today, the Office of Children's Issues provides full 
support to my efforts, as well as those of Secretary Kerry and 
the entire Department, to increase the number of children 
returned to their parents, to advocate for membership in the 
treaty, and to create safeguards that will minimize the risk of 
international parental child abduction.
    Mr. Chairman and members of the subcommittee, in conclusion 
I want to assure you that we continue to develop programs and 
outreach to prevent abductions through increasing awareness of 
this issue. Your support remains a key element to our success. 
Congressional interest is crucial as we encourage other 
countries to join the Convention and continue bilateral 
discussions to resolve existing cases that fall outside the 
Convention framework. I will be very happy to take your 
questions.
    [The prepared statement of Ambassador Jacobs follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you very much, Ambassador. Let me thank 
you for your testimony, and for the work of your office and 
yourself.
    Part of the concern that many of us have is that your 
office, assuming and believing that there is nothing but good 
will there, doesn't have the sufficient tools to get the job 
done. And I would hope--and you may not want to comment on it 
today, but I know you have seen the legislation. But as I said 
in my opening statement, our hope is to empower you, and 
empower the Secretary of State and the President, as we did 
with the International Religious Freedom Act--and as you know, 
the penalties, starting with a simple demarche on to very 
significant penalties, is derived verbatim from the IRFA 
legislation of 1998, which went through my committee and is 
authored by Congressman Frank Wolf. And it parallels very 
closely what we did on the Trafficking Victims Protection Act.
    Both of those initiatives were strongly opposed, especially 
IRFA, by the Clinton administration, but he signed them at the 
end of the day, both of those pieces of legislation. I know 
that human rights enforcement, if we assume good will on the 
part of a country, without a penalty phase, becomes somewhere 
between slim and none in most cases. That was a lesson learned 
from those two landmark laws that we are trying to apply now to 
child abduction.
    If you wanted to comment on the legislation, because the 
new bill will be very similar to the old, but with some 
significant upgrades. Would you like to comment on it?
    Ambassador Jacobs. Thank you, sir. We look forward to 
working with you on it. We would welcome seeing the new 
legislation and discussing it with staff at your earliest 
opportunity.
    Mr. Smith. Okay. I would hope you would. And I hope--you 
know, because time delay is denial for a left-behind parent and 
for a child. I mean, this legislation can move and should move 
quickly. It has been delayed far too long for whatever reasons, 
so we really need to, on both the congressional side and the 
executive branch side, come to a consensus and get this done.
    I noted in your testimony you talked about Japan, and we 
are all looking forward to a ratification. I am very concerned 
that the caveats and the reservations may be onerous, and may 
lead to very few resolutions where the child is actually 
returned. But you noted in your testimony that it will be 
entered into force automatically, it will immediately be 
applicable to the U.S. situation.
    And yet, when you talked about Korea, you said that the 
Department needs to study the Republic of Korea's 
implementation of the treaty, its domestic legislation, 
institutions and the like. It seems to me that Japan, with its 
sole custody laws and other hindrances, particularly in its 
family law, raises very significant barriers to a successful--I 
am wondering why the difference between Korea and Japan.
    Why isn't Korea entering into force now?
    Ambassador Jacobs. The reason is because Japan was a member 
of the Hague Conference when the treaty was written in 1980, 
and every country that was a member of the conference, of the 
Hague Conference, automatically becomes a party to the 
Convention without anyone else having to do anything.
    Mr. Smith. So regardless of how infirm their laws might be?
    Ambassador Jacobs. Regardless, that is the way the 
conference works. Korea was not a member of the Hague 
Conference then, and so we have to check that the central 
authority has proper authorities, that there is a judicial 
system and law enforcement to make sure that the treaty will 
work.
    So there is a big difference, and I can understand the 
concern.
    Mr. Smith. Congress has made several requests to be 
informed of the number of children returned to the U.S. in 2011 
and 2012, as had previously been the practice of the State 
Department, but we have not received a response. Do you know 
why?
    Ambassador Jacobs. I am sorry, but I don't. I will find out 
for you and let you know.
    Mr. Smith. Okay. And more importantly, if we could get 
those numbers----
    Ambassador Jacobs. I will see what I can find out.
    Mr. Smith [continuing]. That would be very good.
    Ambassador Jacobs. I think one of the things that is 
important to remember is that there is always something behind 
the numbers. The numbers are not the complete story. And so we 
look forward to working with your staff----
    Mr. Smith. Well, we are concerned about a breakout with 
actual returns, and then others that are deemed resolved but 
really there was no return. And that differentiation is 
something that it would be very helpful for policymakers to 
know. So if you could include that?
    Ambassador Jacobs. I will see what I can find out.
    Mr. Smith. Okay. Could you get that to us?
    Ambassador Jacobs. I will get you an answer.
    Mr. Smith. Let me ask you about memorandums of 
understanding and bilateral agreements. When I went with the 
Eliases to Japan, I met with members of the Diet, members of 
the government, our own Embassy people, who obviously were very 
empathetic.
    But as you know, children are not coming home from Japan. 
Whether the abductor is a father or a mother, it continues to 
be a serious, serious problem. In the case of Michael Elias, as 
you know, his former wife worked for the Japanese Government. 
And the judge, when custody was being decided, took the 
passports and said, ``No travel.'' She went and had a duplicate 
set made, because she worked for the government, and then 
whisked off with the two children. And as far as I know, there 
has been no real investigation, no penalty, no sanctioning, of 
that young woman for that terrible act of not just abduction, 
but also fraud, in terms of the passports.
    And one of the several conversations that I have had with 
your office, and with Ambassadors around the world who are 
dealing with this, particularly in non-Hague countries, is the 
compelling need to have a bilateral agreement. We do it on 
adoption in many cases, where there are gaps, even with those 
that have signed the inter-country adoption Hague Convention. 
But with Japan, it seems to me, the opportunity is ripe for an 
agreement.
    Good will, you know, only goes so far. And like I said, for 
Michael Elias, who is sitting there, and all the other left-
behind parents, delay is denial. And why not an agreement? 
Hammer out an agreement for a modality to work this out.
    You know, the British have such an agreement with Pakistan, 
and it works. And it works well. Patricia Apy, in her 
testimony, will be speaking to that later on today. I mean, it 
is a vehicle that will undoubtedly yield positive results. I 
see no downside.
    Ambassador Jacobs. Well, I am going to have to disagree 
with you, sir. We have three bilateral--we have three memoranda 
of understanding with Egypt, Jordan, and Lebanon. There is no 
enforcement mechanism, and we have had no returns under those 
memoranda. We believe that the Hague Convention provides the 
best opportunity for resolving these cases. And it took Japan--
I think that the problems, one of the problems in Japan, is 
their belief about custody, that one parent is supposed to drop 
out of the child's life when there is a divorce. But we see 
that these things are changing, and that Japan is moving to a 
more global understanding of what custody is, and how both 
parents need to participate in a child's life.
    So we hope that, when they are soon a party to the 
Convention, we will be able to work with them on compliance and 
access, and make sure that parents do get to see their children 
for more than an hour a week. I agree with you that that is not 
access.
    Mr. Smith. But I would just say, even though the examples 
with Egypt, Lebanon, and Jordan--I mean, Egypt went from a 
dictatorship that was elected but maybe falsely, under Mubarak, 
and I met with him so I know what he was like, to Morsi who has 
gone from bad to worse. Jordan is a good friend. Lebanon, 
obviously, has many problems.
    I mean, against those examples, Japan and India are mature 
democracies with functioning Parliaments. I mean, the Diet and 
the Parliament in New Delhi have checks and balances. It seems 
to me that they are major world players. They purport to follow 
the rule of law. For the life of me, I can't understand why the 
reluctance. It can only be value added. It can only add an 
additional mechanism. If it brings home one child, it will be 
well worth the effort. I believe it would bring home many 
children, and that it would start a process that might even 
have a chilling effect on future abductions.
    One of the things that Bindu will testify to--do you agree 
with that?
    Ambassador Jacobs. I think that we will have better success 
with Japan and India when they are members of the Abduction 
Convention.
    Mr. Smith. But again, all of the current cases with Japan 
are grandfathered out. And to assume that there will be a 
reservoir of good will created, I think, given their past--past 
is often prologue--we need some game-changers. And an MOU, I 
believe, would do that.
    Ambassador Jacobs. I think, for the cases that are not 
covered by the Convention, that we do need to reach an 
agreement with Japan. I agree with you, and we will be working 
with them to see what we can do, and also with our partners, 
who were incredibly helpful in working with us to persuade 
Japan to join the Convention.
    Mr. Smith. So then you would be for an agreement with 
Japan.
    Ambassador Jacobs. We will explore every avenue to get 
those children home.
    Mr. Smith. Okay. Again, I would hope that the sooner that 
is initiated, because the agony--as you know so well--I don't 
know how people--and you have met many of these people as well, 
as have your staff. When you sit and look them in the eyes, and 
realize that they lose hope, one of the--again, Bindu will 
testify that, when she went for help to our folks in India, 
that is to say U.S. Embassy personnel, she was told that there 
was very little they could do because she didn't have custody. 
She then got custody, and she has told me and, I believe, will 
testify to that, but she told me earlier today, because I asked 
her, that she still hasn't gotten help.
    And in your testimony, you cite a case: ``We are encouraged 
by a recent decision in the High Court of New Delhi to return a 
child to her country of habitual residence for a final 
determination of custody.'' I mean, it is one case. I don't 
know what country you are talking about. Is it the U.S.?
    Ambassador Jacobs. It is a return to the United States, 
yes.
    Mr. Smith. Oh, it is? Okay. Do you see a precedent in that?
    Ambassador Jacobs. I see hopeful signs that judges are 
making the right decisions. And we will continue to work with 
India to encourage them to continue to make those kinds of 
decisions while they write their implementing legislation to 
join the Convention.
    Mr. Smith. Okay. Again, it takes effort, but a bilateral 
agreement there as well could bring these two children home. I 
mean, based on all of the available court evidence, this man 
has acted--her ex-husband--with absolute impunity, which is why 
she is here today to testify. And so I would hope our efforts 
in-country would be redoubled on her behalf as well, if you 
could commit to that. That would be very helpful.
    Ambassador Jacobs. Absolutely.
    Mr. Smith. I do have other questions, but I will yield to 
my friend, and then come back. Thank you. Mr. Cicilline?
    Mr. Cicilline. Thank you, Mr. Chairman. Thank you, 
Ambassador Jacobs, for your testimony.
    I just want to focus for a moment on the Hague Convention 
and compliance with that, because I agree that ensuring as many 
countries as possible become signatories of the Convention is 
the best and most effective way to ensure the return of 
American children, and so I was struck by a comment you made 
about some examples where compliance with the Hague Convention 
does not result in the return of the child.
    I take it that is not because of a failure in the current 
drafting of the Convention requirements, but just the parent 
who was seeking return is not--I mean, I am looking for an 
example of where that might happen. Is there something we need 
to address or revisit with the Convention protocols, in 
particular?
    Ambassador Jacobs. No. Thank you for that question. There 
is a section of the Convention, and it is called 13(b). Where 
there is a grave risk to the child, the child doesn't 
necessarily have to be returned to its habitual residence.
    Mr. Cicilline. Okay. Great. And I noticed in your written 
testimony that in June 2011, the parties to the Hague 
Convention did an examination and made some conclusions and 
recommendations, and some of those conclusions were that 
applications for returns had increased, but the number of 
returns had decreased.
    What is the reason for that? Are there things we can be 
doing about that? And are you sort of satisfied with the 
current provisions of the Hague Convention, that if parties are 
signatories and comply, it does what it is expected to do?
    Ambassador Jacobs. If countries--that is a great question. 
Because if countries comply, it works very well. And we are--
the treaty is a living thing, and we are constantly working 
with our partners in the Convention to help them comply better 
with it, which is why we have the compliance report and we cite 
countries when they aren't doing the right thing, when the 
central authorities don't communicate with us or when law 
enforcement doesn't enforce what the courts are doing, or, in 
many countries, where court delays really delay the return of a 
child.
    And what you are citing in June 2011, there was a special 
commission meeting where we had the opportunity to meet with 
all of our partners and to talk about compliance and best 
practices. And this is something that we continually strive 
for. We try to improve our practices, and we certainly try to 
educate other countries on how they can do a better job in 
enforcing the Convention.
    Mr. Cicilline. But are we still seeing increased 
applications, meaning people are relying on or having 
confidence that this is a mechanism by which they will have the 
children returned, but in fact seeing a decrease in the number 
of children that are actually returned?
    Ambassador Jacobs. We have seen an increase in returns, 
especially from Mexico. We have a very productive relationship 
with Mexico. We have worked very hard at it. And we are getting 
much better at cooperation. There are some Hague countries 
where we do have problems, and where we have problems we work 
with them, we visit them and talk to them very frankly about 
what they need to do. Sometimes it works. It worked with St. 
Kitts. It was only one case, but they finally wrote their 
implementing legislation and now are enforcing the Convention.
    But it is an ongoing process. We have working groups with a 
number of countries. We meet jointly and we do everything we 
can to persuade countries to implement the Convention properly.
    Mr. Cicilline. And Ambassador Jacobs, what are your 
thoughts on the use of sanctions against countries that either 
violate the Convention and are signatories, or as a condition 
of United States assistance being required to become a 
signatory? For example, obligating in exchange for U.S. foreign 
aid, or some preferential trade status, that there be a 
condition that you be a signatory on the Hague Convention as it 
relates to abducted children. I mean, is that effective?
    Ambassador Jacobs. Thank you for the question. I think that 
sanctions are a two-edged sword. I think that threatening 
countries is often an unsuccessful way to get them to cooperate 
with us, because most of the relationships that we have are 
very complex and involve many issues. So to use Japan as an 
example, we have defense arrangements with Japan. We have trade 
arrangements.
    The return of these children is incredibly important to us, 
and we pledge to work to do the best we can to get these 
children returned, but I don't think that we are going to 
sanction Japan, or threaten them with sanctions, because I 
think that would be detrimental to our bilateral relationship.
    Mr. Cicilline. But how about countries in which, for 
example--just to use Egypt as an example--that are significant 
recipients of foreign aid?
    Would it be an effective--I mean, I don't know whether 
those conversations take place at a much higher level than both 
of us, but it seems like an obvious question to say, in the 
moment when we're providing substantial foreign aid, that while 
it may not warrant or it may be difficult to have an individual 
conversation about an individual case, a broader policy 
requirement of sort of signing on to a treaty such as this 
might be something that would yield some results.
    Ambassador Jacobs. It might, but it might also mean that 
they won't cooperate with us at all if they feel that they're 
being threatened. Egypt is a country in transition, and we are 
mightily trying to influence the direction that it takes. This 
is one of the issues that we raise constantly.
    The Ambassador--we have 20 cases in Egypt, and she raises 
this issue with the President, with the Foreign Minister, and 
with others all the time. I have made a number of trips to 
Egypt, most recently in March, to raise these issues. And the 
Egyptians listen. I think they hear the message. And we are 
hoping that they will be able to do something about it.
    One thing that I think will help us is when we become a 
party to the 1996 Hague Convention on Protection of Children, 
which includes the recognition of foreign court orders, and 
then we might not have to go through all the Hague procedures, 
but we would be able, with our partners, to present a court 
order and that would be recognized.
    Mr. Cicilline. Thank you for raising that. I agree with 
you, and I hope we will join that. And I yield back, and thank 
you, Mr. Chairman.
    Mr. Smith. Thank you. I will yield to myself for just a 
moment to make a point.
    You know, with Egypt, there is no MOU dealing with 
abduction. There is no MOU with Egypt, or bilateral agreement. 
It has to do with access, not with return, according to the 
Department of State's Web site. Not with return, it has 
everything to do with just having access to the child.
    So I think, just a point of--if I could just make a point 
on the sanctions issue. Sitting right where you sit, John 
Shattuck, Assistant Secretary for Democracy, Human Rights, and 
Labor under Bill Clinton, testified against the International 
Religious Freedom Act, citing opposition to sanctions. 
Madeleine Albright was unalterably opposed to sanctions when it 
came to combatting human trafficking. At the end of the day, 
Bill Clinton signed the bill. He was presented a bipartisan 
bill, and I know, because I authored it.
    But we had total bipartisanship. Sam Gejdenson, from nearby 
Connecticut, was the prime co-sponsor, and we worked hand in 
glove together on that legislation. But the administration was 
against sanctions, and they made the exact case, exact, 
verbatim, that you just made, that sanctions are two-edged 
sword and can be counterproductive.
    We give the President tools. He doesn't have to use them. 
Hopefully he will, the threat of sanctions, and then when you 
have an egregious violator--and remember, these are American 
kids. American human rights are being violated, and American 
parents.
    Ambassador Jacobs. I understand that, and I appreciate your 
passion for this. But I would argue that abduction and 
trafficking are two very different things. Trafficking in 
children is horrible. Abduction is horrible. But they are very 
different.
    Mr. Smith. Evidence clearly suggests that the child is 
injured very seriously, particularly psychologically.
    Ambassador Jacobs. I didn't say they weren't.
    Mr. Smith. Okay.
    Ambassador Jacobs. But the trafficking, it is my 
understanding that our laws cover trafficking for sex or for 
labor.
    Mr. Smith. Yes.
    Ambassador Jacobs. And this isn't that. This is a wrongful 
removal from the other parent's custody, and I think that we 
would be better off trying to enforce civil remedies to find a 
solution to these problems. And if we can do this outside of 
the Convention, I think that would be great, but we have had 
very limited success in doing that.
    Mr. Smith. Can I just say, with deep respect, that--and 
David Goldman will testify to this--that the return rates are 
almost identical for non-Hague and Hague countries, just below 
40 percent. I am all for the Hague Convention, but it has 
proven itself to lack enforcement, and we are saying that when 
it comes to our children and our left-behind parents, we want 
additional tools in the toolbox to provide for enforcement, 
because their human rights have been egregiously violated. As 
you know, you now have Brazil back on the list. I am not sure 
why there have been problems there. It is another question. But 
I really should yield to Mr. Meadows, and then I will come 
back.
    Mr. Meadows. Thank you, Ambassador. And I understand some 
of your diplomatic issues that you have to deal with from 
trying to balance diplomacy at the same time as trying to make 
sure that we protect the rights of parents, U.S. parents and 
children that have been abducted.
    And so I want to follow up a little bit on my opening 
statements. And it has been mentioned here about sanctions and 
aid, and those kinds of things. We have to figure out 
legislatively, and as I look at the numbers from the Hague 
Convention, if you exclude some of the results--well, if you 
exclude Mexico, where we have had some successes, there, if we 
start to look at this, it doesn't look like there is really a 
big difference in terms of the return rate, whether they are in 
one or the other. We still have a third of the children that 
are in non-Hague countries, according to your testimony, and I 
think two thirds of them in Hague Convention countries, that 
are still not being returned.
    But as you look at that, is there a huge difference in 
terms of the return rate with regards to it? There doesn't 
appear to be, and maybe I am looking at it wrong.
    Ambassador Jacobs. No, I am sorry, you are not looking at 
it wrong. But the returns are not always under the Convention. 
Some of them are mediated agreements between the parents. 
Sometimes the parents just do the right thing and return the 
child. But in a Hague country, there is a legal framework for 
resolving these issues that are not available in non-Hague 
countries.
    Mr. Meadows. I understand the legal framework, but if the 
results are no different, then what benefit is the legal 
framework? I mean, if we have a legal right to get them back, 
and it is not doing anything better, then it doesn't matter?
    Ambassador Jacobs. Well, without Hague, the parents are 
really on their own. They have to hire an attorney. They have 
to go to court----
    Mr. Meadows. So you are saying that it is cheaper on the 
parents to get non-results?
    Ambassador Jacobs. It is not cheaper, it is more that there 
is a clearer path to a resolution in a Hague country, and we 
can provide a lot more assistance.
    Mr. Meadows. Okay. And again, I want to remind you of my 
opening statement. I believe your heart is to return these 
kids, and so I am just trying to be--I need you to be the 
diplomat. I need to be the jerk. Okay? To put it from an 
international point of view, what I want you to do is say, 
``Golly, I would be with you, but those guys in Congress are 
holding your funds,'' or, ``The guys in Congress are doing''--
what I need is, I need to provide you the tools where there is 
some motivation.
    I mean, I get requests every day from foreign nations, 
because we sit on the Foreign Affairs Committee, wanting money. 
And yet, that is not my decision. But if it were, where you 
bring up these issues, there has to be a--if you got paid based 
on the number of kids that came back from abroad, it would be 
every day you were saying, ``Well, how many people have come 
back?'' And I am not saying that changes your motivation. It 
just highlights it some.
    And so I want to provide you the tools, and if you can give 
me some of those--I am a little troubled when we start talking 
about international law and its attack on U.S. sovereignty, 
when we start saying, ``Well, we have got an international 
court that is going to decide this.'' And I am not saying that 
you are saying that. But what I am concerned about is that, 
from a sovereignty standpoint, what can we do, in America, to 
provide an incentive for these countries to return our 
children?
    Ambassador Jacobs. First of all, your interest and having 
hearings like this send a very strong message to other 
countries.
    Mr. Meadows. Right.
    Ambassador Jacobs. And believe me, when I go, and I travel 
a lot, to Hague and non-Hague countries, I tell them that 
Congress is watching this closely, and that this is an 
incentive to do the right thing.
    Mr. Meadows. Okay. Well, let me give you this, so we are 
clear on this, Ambassador, so you can take this and you can 
play this little short YouTube video wherever you need to play 
it.
    We are serious. And even if it goes beyond the normal just 
waiting, Congress is serious about resolving this. We have a 
bipartisan resolve in terms of wanting to resolve this, and so 
that you can take that message that, not only are you here 
today, but we have other witnesses that will be testifying, 
that we are going to continue to highlight it until the rule of 
law prevails. And we are not asking for some non-rule to be 
enforced. We are just saying the rule of law must be enforced, 
whether we have a bilateral agreement or not.
    And so that really is not a question as much as it is a 
statement that I want you to be able to use. So let me go on a 
little bit further. Because what we talked about, it sounds 
like most of what has been done is judicial seminars, 
compliance reports, those. And that can be very frustrating to 
a parent when they start to look at ``Okay, what do you need to 
do?'' Well, you need to go and go to this judicial compliance 
review.
    And it is kind of like saying that, if you go to a seminar, 
it is going to get better. And what I want to make sure of is 
that I provide the tools that are necessary, not only from a 
prevention standpoint, but what do we have to do to make it 
going forward?
    Can you and your staff provide me with some recommendations 
that we might look at to introduce as legislation that might 
help you?
    Ambassador Jacobs. Absolutely.
    Mr. Meadows. All right. And then I want to finish up, 
because I think they are calling votes here, what would you 
say, in terms of that relationship, the only--you mentioned 
Mexico as being the one that you had the best options with, 
just because of our relationship with Mexico. What other 
countries would you say we need to model, from a standpoint of 
return rates, and how that could happen? I mean, is there 
anything to be learn from Mexico in terms of that, or is it 
just that we have a good relationship?
    Ambassador Jacobs. We have a good relationship with Mexico 
because we work very hard at it, and we do that with every 
country.
    And when we say judicial seminars, we have a Hague network 
of judges who travel at our request and work with the judges of 
other countries to explain how the treaty should be implemented 
and judged, and how cases should be decided. We have 
international visitors that come to meet with us, and we have 
lots of bilateral meetings to talk about the importance of the 
Convention and proper implementation. But we have some ideas on 
other things that can be done, because, as I said, it is a 
living document, and it can always be improved upon, as can the 
compliance of every country that is a party to it.
    Mr. Meadows. Okay. Well, I believe my time is up, and so I 
will yield back to the chairman from Texas. But as I do that, I 
want to say thank you for coming. Again, I look forward to 
those specific recommendations, and I can assure you that, from 
a legislative standpoint, I will work with my colleagues 
opposite here to make sure that we act on those. Thank you.
    Mr. Weber [presiding]. Thank you. Now, without objection, I 
will yield to my colleague, Mr. Kennedy from Massachusetts.
    Mr. Kennedy. Mr. Chairman, thank you very much. It sounds 
good to say that.
    Ambassador Jacobs, I want to thank you again for your 
testimony this morning. You have worked with my office for the 
safe return of both Noor and Ramsay to their father, and I want 
to thank you again for all of your work. As you know and as you 
have mentioned, the political situation in Egypt at this moment 
is complex and complicated, but we can't let that stop us from 
working for the safe return of abducted Americans.
    You mentioned in your testimony the lengths to which 
Secretary Kerry will go through his diplomatic channels to 
fight for the rights of Americans, and that nowhere has that 
been more evident than with his efforts as both Senator and now 
as Secretary of State, with regards to Mr. Bower. Egypt, as you 
also mentioned, is an emerging democracy that is struggling 
with the transition from decades of dictatorship. It has a long 
history with the United States, and is an important stabilizer 
to a volatile region.
    However, the United States has an obligation to its 
citizens to see that our laws are enforced, and that the rights 
of our citizens will not be infringed by blatantly illegal 
acts. A father has a right to expect that he can see his 
children, and a citizenry has the right to expect that its 
government will do all it can to enforce the legal obligations 
on its people.
    Given that dynamic, how do you balance our role in the 
international community with the obligation to reunite two 
young American citizens with their father? I ask for your 
renewed commitment today to continue that fight against child 
abduction, and will be interested in hearing your thoughts on 
how we can move forward. And only a couple of moments, 
unfortunately, because our time is limited. But thank you.
    Ambassador Jacobs. I will speak quickly. Thank you, sir. We 
will continue to advocate in every country for the return of 
children who have been abducted. The Secretary has been very 
strong on his first trip, I think the trip to the Middle East 
was one of his first trips. He met with President Morsi and he 
raised all the abduction cases in Egypt. We are not going to 
forget about these cases. We are constantly thinking of ways 
that we can use our influence to persuade the Egyptians that 
this is something that they should do and recognize.
    Mr. Kennedy. And Madam Ambassador, just to be a little more 
concrete on that--and I understand that you have been. You have 
been vocal about bringing these issues up through diplomatic 
channels. I have brought them up with the Egyptian Ambassador. 
I know Mr. Bower has, Secretary Kerry has.
    What more can we do, seeing that you have done much, but we 
are still not getting there? What are some concrete actions we 
can take moving forward to try to move the ball a little bit 
here?
    Ambassador Jacobs. I think we just have to keep talking to 
the Egyptians. And you know, eventually diplomacy can work. And 
that is what we have to do. I don't think that threatening the 
Egyptians is going to be effective. I don't think that--we 
aren't going to break relations with them. We are going to 
continue to talk to them, because we have to keep the channels 
of communication open so that they understand, yet again, how 
serious we are about resolving all of the cases in Egypt.
    Mr. Kennedy. Thank you. I will yield back. Thank you, Mr. 
Chairman.
    Mr. Weber. Thank you, Madam Ambassador. And I have a couple 
of questions for you. You mentioned in your earlier testimony 
that abduction of children by one parent is not really viewed 
in the same light as trafficking, for example, and that it is 
more of a civil instance, I think you said, than a criminal.
    Is that accurate?
    Ambassador Jacobs. Parental abduction is a crime in the 
United States.
    Mr. Weber. And that is the point I want us to get to, that 
under the International Parental Kidnapping Act, it is a crime.
    Ambassador Jacobs. It is.
    Mr. Weber. And so what would you say if I highlight the 
fact that, when you take a child, and one parent, who is 
supposed to be a trusted overseer, or guardian, if you will, 
uproots that child from the other parent, would you agree that 
that is pretty heinous? I mean, the child has got to be really 
confused, because here that child was in a loving, stable, 
hopefully stable, nurturing relationship with the other parent, 
in a safe environment, and now one parent has taken that child 
from the only home they have ever known to a foreign place.
    And not only that, but if they get to the point where they 
feel like our country has deserted them, the only home they 
have ever known, then is it safe to say that they would 
actually feel the double whammy, double effect, if you will, of 
the fact that one of their parents has betrayed them now, not 
only by uprooting them from the other parent and the only home 
they have ever known, in most instances, but now the only 
country they knew, it seems like, has turned their back on 
them.
    How do we mitigate that? What do we do about that?
    Ambassador Jacobs. Well, I completely agree with you that 
it is a heinous act to abduct your child. But we haven't 
forgotten about them, and we work in Hague countries with the 
central authorities for the return of children under the 
Convention, and bilaterally and multilaterally in countries 
that are not parties to the Hague. We do not forget about these 
children.
    Mr. Weber. Well, I----
    Ambassador Jacobs. We work for them every single day.
    Mr. Weber. Well, you, of course, certainly have been doing 
that through your work, and the very fact that we are 
passionate about that also. But does the child know that?
    Ambassador Jacobs. I don't know what the child knows.
    Mr. Weber. But what does----
    Ambassador Jacobs. I think that the child is probably 
scared and confused and troubled----
    Mr. Weber. And kept in the dark.
    Ambassador Jacobs [continuing]. And kept in the dark about 
what has happened. We know that the taking parent often lies to 
the child, and says that the other child is not interested in 
them anymore. I just can't imagine anything worse. I'm a mother 
and a grandmother, and it would be incredibly awful to have had 
one of my children abducted.
    Mr. Weber. Okay. Well, thank you for that. Unfortunately, I 
am out of time. They are calling votes. I have got to go. So I 
am going to have to recess. Chairman Smith will be returning 
shortly. So if you don't mind, stay put and stay tuned. Thank 
you.
    [Recess.]
    Mr. Smith. Thank you for your patience. And Ambassador, 
sorry for that break.
    Let me just ask you, if I could. I kind of hinted at this 
before, but Brazil is listed as demonstrating a pattern of non-
compliance with the Hague Convention in the most recent 
abduction report. Can you explain what has happened there in 
Brazil?
    Ambassador Jacobs. I will be happy to.
    Mr. Smith. Please.
    Ambassador Jacobs. While we have an excellent relationship 
with the central authority and meet with them frequently, 
judicial decisions take an awfully long time and we often find 
that they, in our view, are misinterpreting the Convention. And 
then, once there is a return order, it takes a long time for it 
to be enforced. So there is the law enforcement problem and the 
judicial decisions.
    Mr. Smith. How many cases do we have in Brazil now?
    Ambassador Jacobs. One moment and I will look it up.
    Mr. Smith. Sure.
    Ambassador Jacobs. I am not sure, sir. I am going to have 
to get you that information.
    Mr. Smith. I appreciate that.
    Ambassador Jacobs. I don't want to keep you waiting.
    Mr. Smith. No, thank you. As I think you may know, the 
Japanese Foreign Minister reportedly said that if there is any 
chance that a taking parent could be prosecuted in the country 
of habitual residence, even if there is no pending charges, the 
child will not be returned. If that is accurate, that would 
mean that no children can be returned to the United States, 
where parental child abduction is a criminal offense.
    What is the State Department doing to ensure that the 
Japanese implementing legislation does not undermine the core 
principles of the Convention, or otherwise give the Japanese 
Government an excuse not to return an American child?
    Ambassador Jacobs. Thank you for that question. The 
Convention does not have criminal penalties in it, because it 
is a private international law convention. So the idea is that 
the child is returned for a custody hearing in the country of 
habitual residence. The problems would arise if the parents had 
chosen to go to the FBI and filed a criminal case against the 
taking parent.
    Mr. Smith. So they would be precluded an opportunity to use 
the Hague, as the Japanese see it, to permit that child to come 
home?
    Ambassador Jacobs. I am not sure. We would have to look at 
that.
    Mr. Smith. Well, is it something that your office could 
raise, if you haven't already? Because it seems to me that 
becomes a veto power. I mean, who can blame a left-behind 
parent for using every potential remedy at their disposal, 
including criminal sanctions, when such a horrible act has 
occurred?
    I mean, many have done that. And now they will be told 
``Tough luck.'' I mean, that makes ratification of the Hague by 
Japan even more suspect, more of a sense of Japan--I mean, a 
sense of Congress-type legislation that we have here. But how 
will it be implemented? Not well.
    Ambassador Jacobs. That is the question. We are going to 
have to work very hard with Japan on proper implementation. But 
criminal charges against a taking parent often lead to a 
reluctance to return the child to the habitual residence, 
because they don't want the parent thrown in jail. I mean, the 
whole idea of the Hague is to find civil remedies that will 
encourage the return of children.
    Mr. Smith. Okay. Again, all the more reasons why a 
bilateral agreement could iron out those issues. Because I 
think the left-behind parents, like Michael Elias and all the 
others, Patrick Braden, all of them, will find themselves in 
even more of a maze, particularly if they took some legal 
action.
    Okay. So if you could take that back.
    I do hope, and I know it has probably been asked by my 
friend and colleague Mr. Kennedy, but I was wondering when 
Secretary Kerry was last in Egypt and provided a check to the 
tune of a quarter of a billion dollars, was the issue of child 
abduction on the table?
    Ambassador Jacobs. It was.
    Mr. Smith. And was there any sense of movement on the part 
of Morsi to resolve these cases?
    Ambassador Jacobs. He said he would look into it, that he 
would take action. We are waiting.
    Mr. Smith. And again, I know Mr. Cicilline mentioned this 
in talking about conditionality. I mean, Egypt does get an 
enormous amount of foreign aid from the U.S. Government, $1.3 
billion, approximately. When we fought last year to include 
religious freedom conditionality, it was opposed by the 
administration. It got in, but it has been waived, regrettably, 
particularly because of the mistreatment of the Coptic 
Christians.
    But do you think conditionality on aid would be a wise 
tool? Again, it's conditionality, it can be waived. The 
President would have that authority. But it would allow you and 
your staff, and our Ambassadors, and all those involved, to 
have additional clout. Because, again, I don't assume good will 
with some of these governments when they show a pattern of 
either non-cooperation, or they are not compliant, if they are 
Hague signers.
    Ambassador Jacobs. That is a question I am going to have to 
get back to you on.
    Mr. Smith. Okay. Do the others have any questions? No, they 
are all voting.
    Again, I thank you. I look forward to your answers, 
including some of the more just bookkeeping-type, 
accountability, as to children that have been returned, those 
that resolved that were not returned and what that means, if 
you could get back to us on that.
    Because there always seem to be some questions about what 
are the numbers, even when we have worked on legislation and we 
put findings, we get one number, and before the ink is dry it 
seems--not because--I mean, huge differences, disparities. So 
please, get those numbers back to us. It would be very helpful.
    Ambassador Jacobs. I will take the issue back to the 
office.
    Mr. Smith. Okay. I appreciate that.
    Ambassador Jacobs. Thanks.
    Mr. Smith. I am planning a follow-up hearing, and maybe you 
or the Assistant Secretary for Asia might want to testify. Has 
that person been selected, do you know?
    Ambassador Jacobs. For what, sir? I am sorry.
    Mr. Smith. For East Asian and Pacific Affairs, the 
Assistant Secretary.
    Ambassador Jacobs. Not that I am aware.
    Mr. Smith. Or maybe the DAS would come up, to talk about 
Japan again, especially since things are happening there. And 
we do plan on having additional members, family members who 
have been left behind, testify. So I do hope you will just work 
with us on this, if you would.
    Ambassador Jacobs. Absolutely.
    Mr. Smith. Thank you.
    Ambassador Jacobs. I pledge that to you.
    Mr. Smith. I appreciate that. Thank you, Madam Ambassador.
    I would like to now invite to the witness table our next 
panel, and maybe if they wouldn't mind, we will wait until the 
other members come back, because they will want to hear what 
you have to say as well. So we stand in recess.
    [Recess.]
    Mr. Smith. The hearing will resume its sitting, and I again 
apologize to our witnesses and to all here for the delay 
because of the voting on the floor. Some of our members are en 
route, coming back.
    And I will now introduce our witness table, beginning first 
with Patricia Apy, who is a partner in the law firm of Paras, 
Apy & Reiss, which specializes in complex family litigation, 
particularly international and interstate child custody 
litigation.
    Her qualifications for testifying at this hearing are 
unbelievably impressive and extensive. She has litigated and 
been qualified as an expert witness and consultant on 
international family disputes throughout the world. Ms. Apy 
frequently consults and is regularly qualified as an expert on 
family dispute resolution in non-Hague countries and risk 
factors for child abduction.
    She was also one of the lead attorneys for David Goldman, 
and provided expert advice and counsel in his long, arduous 
case, and has been, I would say, a very, very important and 
very wise guide to our deliberations as a subcommittee with 
regards to technical issues, because she has litigated and has 
been all over the world dealing with these issues. So I thank 
you, and I welcome her back.
    Bindu Philips came to the United States in 1996 and became 
a U.S. citizen in 2009. Ms. Philips has lived in New Jersey 
since 2000, where her twin boys, Alfred and Albert were born 12 
years ago. She is an electronic engineer by training, and works 
in central New Jersey, and will be testifying on behalf of her 
sons in an appeal to our Government, and of course to the 
Indian Government, to do the right thing and allow her not just 
access, but to allow her to have her sons back.
    We will then hear from Mr. Colin Bower, who is the father 
of Noor and Ramsay Bower. Noor and Ramsay were abducted by 
their mother from Boston to Egypt in August 2009. Colin remains 
committed to the safe and swift return--swift is now an 
oxymoron in his case--of his children.
    I am pleased to have joined Barney Frank last year in 
sponsoring H.Res. 193 with regard to their particular case in 
the last session of Congress, and we welcome him back to the 
committee.
    We will then hear from Michael Elias, who is a former 
sergeant in the United States Marine Corps and met his wife 
while stationed in Japan in 2004 to 2005. She abducted their 
two children, Jade and Michael, to Japan in December 2008. I 
traveled to Japan with Nancy and Miguel Elias, Jade and 
Michael's grandparents--and Nancy is here with us today--
Michael's mom and dad. I spent several days there meeting with 
high officials in the Japanese Government, and it was very 
clear that when they got to make their case, the Eliases were--
there was an empathetic ear, especially from some of the 
members of the Diet, but the question is whether or not those 
empathetic ears turn into tangible policy that will permit the 
return of children who have been abducted.
    And then, finally, our cleanup batter, if you will, is 
David Goldman, who is the father of Sean Goldman, who was born 
in Red Bank in 2000. Sean was abducted to Brazil in 2004. Mr. 
Goldman spent 5 arduous years devoting enormous amounts of time 
and financial resources, and had a great number of people 
supporting him in the community, to secure the return of his 
beloved son. In December 2009, I had the privilege of being 
with David and Sean when they were finally able to return to 
the United States.
    Mr. Goldman has been a trailblazer in opening the eyes of 
our country to the agony endured by left-behind parents. I can 
say without any fear of contradiction, he did it like the left-
behind parents who are here with us today, with great tact, 
with discipline. I remember being in a court where a man who 
was not the stepfather, but had custody, made so many 
disparaging remarks about him, and yet he remained steadfast, 
eyes fixed on the judge, and made the case as to why he 
absolutely had the right to have his son returned to him.
    So we welcome him back, and I would just note 
parenthetically that the legislation that we are introducing is 
named the Sean and David Goldman International Child Abduction 
Prevention and Return Act because there are successes that can 
be had, but levers need to be pulled, especially when you have 
a government that is, at best, indifferent.
    I would like to now ask, if you could, our first witness, 
Patricia Apy, if she would testify.

 STATEMENT OF MS. PATRICIA APY, ATTORNEY, PARAS, APY & REISS, 
                              P.C.

    Ms. Apy. Congressman Smith, thank you so much for 
permitting me to come back and address the subcommittee as it 
confronts international parental abduction, particularly 
abductions involving jurisdictions which have not ratified the 
Hague Convention on the Civil Aspects of International Child 
Abduction.
    Interestingly enough, in listening to the testimony and the 
questions from members and Congressman Kennedy, I noticed that 
I have litigated cases, non-Hague cases, from each of the 
districts that are represented on the panel today.
    I have chosen two cases as demonstrative of the precise 
issue that we have here. I have been representing Michael 
Elias, one of the witnesses on this panel, in a pro bono 
capacity in response to the request of the former Commandant of 
the United States Marine Corps, General Conway. This battle-
wounded Marine discovered his two children had been abducted by 
their mother. Mr. Elias' wife worked for the Consulate of Japan 
in New York, and with the help of the Japanese consulate 
authorities in Chicago was able to obtain the replacement of 
the children's court ordered surrendered Japanese passports and 
abduct his children.
    Mr. Elias will share in his testimony that the Japanese 
Government not only failed to address the clearly criminal 
behavior of his wife, the complicity of their consulate in 
Chicago, but their duplicity in telling yourself, a member of 
this subcommittee, along with the grandparents of these 
children, that they were actively investigating the criminal 
behavior--which would have provided a basis for extradition, I 
might add--when in fact they had already determined that they 
had no intention of doing so. And that information would be 
purposely withheld from Mr. Elias, as well as from this 
committee, for over a year.
    Christopher Dahm's daughter Gabrielle was abducted from her 
home in Florida to the United Arab Emirates, specifically Abu 
Dhabi, by her dual national Belgian mother. Gabrielle's mother 
brazenly obtained a Belgian passport for her daughter without 
the knowledge of Gabrielle's father, despite a Florida order 
which prohibited the issuance or the removal of Gabrielle from 
the United States. She abducted her with the assistance of the 
maternal grandfather, a pilot for Eithad Airlines, the national 
airlines of Abu Dhabi. That case is being prosecuted by the 
United States Attorney in Miami, which participated in issuing 
Interpol red orders.
    I chose those two countries, first of all, because they 
would be described, I think by every individual, as countries 
with whom we enjoy positive relationships. We are partners in 
issues of commerce and in issues of security. No one would 
identify them as behaving purposefully inappropriately. And it 
is in that context of non-Hague cases that the legislation that 
is proposed is the most important, because by having 
legislation that provides a construct of available tools, these 
countries have a mechanism with which they can have a political 
will and a legal will to do what we know they want to do, which 
is partner with us to address this issue.
    I think it is missing something if you see this merely as 
punitive, because in fact the type of remedies and the type of 
sanctions that are suggested are those that, in many cases--and 
I am thinking particularly of the use of memoranda of 
understanding--those are the kinds of things that can be 
educative and positive and level the playing field in 
negotiating for a remedy.
    One of the most important things to know about non-treaty 
cases is that they present the most expensive and challenging 
cases for the left-behind parent. Parents are consigned to live 
in legal limbo for fear that their chance to locate or retrieve 
their child will be diminished by their actions.
    For example, fearful of ruining their case, in many 
countries they cannot be divorced from the kidnapping parent, 
because to do so would cease their ability to seek a return. 
There has been reference to criminal prosecution, and the 
implication of those references were that a parent might choose 
to engage in criminal prosecution rather than use the treaty--
for example, the Hague Convention--or other remedies. It is 
missing the point that, many times, the only way to locate a 
missing child is with the assistance of the Federal Bureau of 
Investigation, Interpol, and other law enforcement agencies. 
Unless a parent is extraordinarily wealthy, they certainly 
can't have their own private investigation of where their child 
might be located.
    And so it is a situation, as we believe it is in Japan at 
this moment, where if a parent engages in criminal prosecution 
in order to have the ability to locate their child, by 
definition, they will have lost the opportunity to use the 
civil remedies, which are being touted as being the most 
responsive.
    One of my colleagues--and in advance of this testimony, I 
had an opportunity to reach out to colleagues of mine who 
practice in this area as I have, and ask them their issues and 
concerns. And in addressing the issue in Japan, one of my 
colleagues, David Blumberg, who practices in Glendale, 
Wisconsin, said the following, and I think it is entirely 
appropriate for where we are today.

        ``The truly scary part of this whole question is that, 
        because in this case Japan was technically a 
        participating country to the original promulgation of 
        the Hague Convention, if their legislature ratifies the 
        Convention it will automatically go into force between 
        the United States and Japan, even if nothing is done to 
        set up effective enforcement processes or to change 
        their legal system. In my view, such an eventuality 
        could make our problems with Mexico or Brazil look like 
        idyllic strolls in the park.''

    In fact, I agree with my colleague, and must indicate that 
my testimony would be that the ratification of the Hague 
Abduction Convention in Japan has to be considered now illusory 
at best, and deceptive at worst. The April 17, 2013 article in 
Japan Times described the situation and said what international 
family lawyers already know, and that is that Japanese 
authorities have repeatedly stressed that in any case where an 
unsubstantiated claim of domestic violence is voiced, the 
children will not be sent back ``regardless of the 
Convention.''
    Japanese family courts, as that article went on to propose, 
have seen an exponential jump in reported cases, going from, in 
2001, 409 reported cases, to 1,985. Now, those are cases in 
which a parent has the temerity to actually file something in 
the family court in Japan which, as my written testimony 
provides, is a fruitless application. There is no alternate 
remedy.
    The enabling legislation has demonstrated that, as a 
practical matter, there are significant obstacles to the 
reciprocal protections upon which the other 89 treaty partners, 
and most importantly our American judges, are expected to rely. 
See, American judges are going to be told that the Hague 
Convention is in effect between the United States and Japan 
when they assess applications for international access. They 
will believe, and they will follow the Convention here, 
returning American children to Japan when there is an 
application made here.
    But more importantly, when there is an application for 
access to visit a parent in Japan, they will be told that Japan 
is a signatory to the Hague Convention, and therefore when they 
assess risk they should permit that removal when, truthfully, 
as it stands right now, there is no reasonable expectation that 
a child under the current circumstances will be returned.
    If this were an accession case, if this were a situation in 
which we were talking about a country where we had the ability, 
as the Ambassador referenced in her testimony, the ability to 
review their processes and to assure that there is reciprocity, 
then we would clearly have to take time in order to do that. 
That situation is one that American judges are going to have to 
know is a situation in force.
    In listening to the testimony of the Ambassador, one of the 
things that struck me was the colloquy that occurred with the 
member from Rhode Island in addressing the decisionmaking 
process, and I believe that the Ambassador and the member both 
agreed that decisionmaking in some of these areas are above 
their pay grade or level.
    I respectfully must say that I believe that the 
decisionmaking process with respect to this issue is in this 
body, because the client for the Ambassador is not the left-
behind parent. It is the diplomatic status of the United States 
of America which, as she continued to repeat, is a broad, 
systemic sort of issue.
    As someone who has practiced in this area for 20 years, the 
only people watching the shop on the individual needs and the 
potential redress for American children in parents is found in 
the Congress of the United States. The legislation that is 
being proposed provides extraordinary tools which we presume 
will be utilized well by the executive branch and by the 
Department of State. Nothing that the Ambassador said gave us 
any reason to believe that our confidence could not be placed 
in utilizing those tools properly. But it is ridiculous to 
assume that you can negotiate with countries and not have any 
possible level playing field in doing so. It makes no sense.
    And in this status of the legislation that has been 
proffered, you have a range of possibilities that, frankly, 
provides the genuine opportunity to sit down with countries 
like, for example, Pakistan, where you have a common law based 
Sharia court system where the judges have been indicating that 
they want an opportunity to sit down and seek bilateral 
agreements.
    The Ambassador has referenced, both in this testimony and 
in her prior testimony, that quiet diplomacy is used in the 
return of these children. In fact, there is not much that can 
be said other than ``Please, oh, please.'' Ultimately, in 
addition to the strong and positive diplomatic work, what has 
to happen is the governments abroad have to be sure that this 
is, in fact, an issue that is taken quite seriously.
    One of the concerning aspects of the Ambassador's 
testimony--and frankly, I think it reflects my experience as 
well--is the belief that there is a difference between the 
crime of international parental abduction and the human rights 
concerns that were referenced by other pieces of legislation. 
Demonstrative of this is, as it is contained in my testimony, 
the case of Christopher Dahm.
    Christopher Dahm had no choice, because of the way that the 
law is structured in the UAE, but to file criminal charges. To 
the credit, the United States Attorney in Miami initiated 
prosecution and, for the first time, indicted not only the 
abducting mother but the abducting grandparents who were as co-
conspirators in that process.
    However, once that was done, the ability to criminally 
prosecute that case fell into, very frankly, disrepair. Mr. 
Dahm had to continually ask for reports, for assistance in the 
location of his child. Eventually, we requested a private 
meeting for the second time after 2\1/2\ years had gone by with 
no action. Let me say that again. Two and a half years.
    Meeting with the United States Attorney now assigned to the 
case, the second, asking for the FBI agents to be there--they 
weren't--and then being in a situation in which the U.S. 
Attorney on the case indicated that they didn't know who the 
FBI agent assigned was, they had no idea whether the child was 
still in the United Arab Emirates, they could not provide an 
explanation as to the response of the judge to the extradition 
request, or to the pickup on the red order.
    When this issue was raised, and we requested that the FBI 
agent be produced for the meeting, we were told that there was 
none assigned at that time. Finally, the young Assistant U.S. 
Attorney on the case said, ``Well, I think that the pictures we 
have of the child are all from,'' and then she went on to 
describe the location, at which point my client starts to cry, 
because he has not seen his daughter for 3 years, and he says--
and I indicated, ``Do you mean to tell me you have photographs 
in the file that this parent hasn't seen?''
    As it turns out, the Assistant U.S. Attorney didn't know 
who had taken the photographs and under what circumstance. But 
the point is that on non-Hague cases in particular, right now 
the only aspect of being able to raise the criminality of this 
issue--and I appreciate the comments of Mr. Meadows in 
addressing that issue--is the prosecution by the United States 
Attorneys, who don't like these cases.
    I get that. I understand, as a former prosecutor, that the 
very last thing that they want to be involved with is anything 
that remotely looks to them like family law. However, I think 
that the idea--and this is how it gets translated. And I am not 
attributing this to the Ambassador, but I think that this is 
the default feeling. ``Well, after all, how bad is this really? 
I mean, the child is with the other parent.''
    I have been doing this for over 20 years. I remember the 
day when people said to me that intercountry adoption would 
have no impact on international foreign policy. Well, actually, 
as it turns out, that isn't the case. And international 
parental abduction has an impact on foreign policy because, 
while most of constituents have no idea what is involved in the 
decisionmaking process that goes on here, and frankly it would 
boggle most of their minds just what all of those moving parts 
are, what they know is ``Somebody took my grandchild and the 
United States of America is powerless to do anything.''
    I mean, the folks from the greatest generation who I deal 
with look at me like I am insane. How is it possible we don't 
have Marines, never mind sanctions. The fact of the matter is 
that David Goldman's case and other cases that have 
successfully used quiet diplomacy also used the specter of 
having a threat behind it. Not a punitive threat, but a 
recognition that American children are important, that the fact 
that they have been abducted and are not being returned in 
accordance with the rule of law or a criminal prosecution, 
where one is necessary to locate the child, is something that 
we will not ignore.
    With the fact that the Japanese cases, over one third are 
American military members who we sent there, it is mind-
boggling to me that we would actually not consider placing in 
articulable form the potential remedies of the use of a 
memorandum of understanding in those places where it will be 
effective and will lead to the application of rule of law, and 
potentially treaty signatory down the road.
    I served as a delegate of the United States of America at 
the Hague for the negotiation and the signing of the Protection 
Convention that was referred. The Protection Convention is not 
a panacea. We are going to have enough trouble getting it 
enacted in the United States of America, never mind creating a 
reciprocal relationship that allows for mutual enforcement.
    As the judge in the United Arab Emirates said to me, ``You 
don't care about these cases. Why would you expect that we 
would politically go out on a limb to do so?'' Clearly--and I 
said it a moment ago, but I do think it bears repeating. The 
place where the decisionmaking that is most protective of the 
American parents whose children have been abducted takes place 
is not in some office away from all of us. It is in the 
Congress of the United States.
    This bill, for example, would require that Members of 
Congress would know that someone in their district has a 
pending abduction case. For reasons that pass understanding, 
that provision has been opposed by the Department of State on 
``privacy grounds.''
    Well, very frankly, the fact of the matter is, I have never 
met in my 20 years of representing cases, particularly 
involving abductees in non-Hague cases, where a parent didn't 
want everyone they could tell. And it would be much easier to 
opt somebody out than to say--so that a Member would know that 
they have a pending case, so that when they are considering 
rule of law issues involving a country, they know how American 
citizens in that context are being treated.
    Again, it is my privilege to return and to have an 
opportunity to address this subcommittee to address what I 
consider to be extraordinary issues. I must say, the Japanese 
situation is a current, immediate danger. It is going to 
contribute, as we are right now sitting here, to a creation of 
a safe haven. American judges will not know that there is a 
risk of a child not being returned, because they will see the 
Japanese, appropriately so, as ``signatories.''
    I am hoping that the legislation which provides genuine 
diplomatic tools will be used, that this body will seek to 
oversee this issue as they should. And if there are any 
questions that I can answer to enhance that process, I stand 
ready to do so. Thank you.
    [The prepared statement of Ms. Apy follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Ms. Apy, thank you so very much for that very 
comprehensive and, I think, very incisive look, and for 
reminding us that the accession to the Hague, illusionary and 
deceitful at best, I thought that was a very profound 
statement. Because my sense is that there will be a breaking 
out of the champagne bottles, and--I won't say euphoria, but 
there will be an enormous amount of celebration. But people 
will not understand what this might actually portend for the 
abducted children and their parents, especially those to whom 
it has already happened. So, thank you so very much for that.
    Ms. Philips?

STATEMENT OF MS. BINDU PHILIPS, MOTHER OF CHILDREN ABDUCTED TO 
                             INDIA

    Ms. Philips. Thank you, Mr. Smith. Good afternoon, ladies 
and gentlemen of the Congress. It is my honor and privilege to 
testify before you today, and I thank you for taking your 
valuable time to hear of my plight. My name is Bindu Philips, 
and it is my ardent hope that my story shall capture your 
attention today.
    While I have held many roles in life, none has been more 
meaningful to me than that of motherhood. Twelve years ago, I 
was blessed to be the mother of twin boys, my precious 
children, Albert Philip Jacob and Alfred William Jacob. When my 
children were born, my ex-husband, Sunil Jacob, and I made a 
joint decision that I would stay home and be their primary 
caretaker.
    I was an active and loving mother in every aspect of our 
children's life. My children came first in everything I did, 
and in every decision I made. Tragically, my world and that of 
my innocent children was violently disrupted by my ex-husband, 
Sunil Jacob, in December 2008, when he orchestrated the 
kidnapping of the children during a vacation to India. I would 
note that the children are American citizens and that the 
children were born in America, which is the only nation they 
identified as home.
    Sunil Jacob worked in the financial industry and was laid 
off by his employer, Citigroup, late in 2008. My ex-husband 
pressed me to agree upon this family vacation to India during 
the children's winter break. My ex-husband was both physically 
and emotionally abusive to me, and I feared the consequences of 
refusing him. I had seen return tickets for our flight on 
January 12, 2009, and I had every reason to believe that we 
would be home in a few weeks to resume our life in the United 
States. Had I known what would follow, I would have never 
boarded that flight to India.
    On reaching India, I was not only physically and 
emotionally abused by my husband, but also by his parents. I 
was finally very cruelly separated from my children with no 
means to communicate with them. I could not bear the separation 
from my children, and on learning that they were admitted to a 
local school in India I approached the principal, requesting 
that I be allowed to see my children, and I was granted 
permission.
    As soon as my ex-husband learned about this, he transferred 
them to another school and gave the school strict orders to 
neither allow the mother or any of her maternal relatives to 
see or communicate with the children. I contacted the U.S. 
Consulate in Chennai, India for assistance, yet, absent an 
order granting me custody of the children, there was little 
that the consulate could do for me.
    I would like to point out that Sunil Jacob's plan to kidnap 
the children and sequester them in India out of my reach was 
not a decision that was quickly or lightly reached. Subsequent 
events showed how carefully he had planned his actions.
    Unable to communicate with my children, I finally returned 
to the United States 4 months later, on April 9, 2009. I 
literally came home to an empty house. Our residence in 
Plainsboro was devoid of all furniture and possessions, and our 
cars were gone from the garage. While in India, my ex-husband 
had his three friends strip the entire house of everything 
inside. They took everything, leaving me with not a single 
photograph of my children. He had not paid the mortgage on the 
home, our Plainsboro home, nor the utilities, nor the equity 
line of credit which he had transferred to India and left me 
with additional financial burden.
    Heartbroken and impoverished, I had to start from scratch 
and initially survived on the graciousness of good people. My 
neighbors allowed me to move in with them briefly, and a local 
church provided me a car. Shortly thereafter, I found 
employment, secured an apartment, and purchased my own car.
    Over the last 4\1/2\ years, I continue to uncover 
information that shows how deceptive my ex-husband, Sunil 
Jacob, is. The investigation report from the Plainsboro Police 
Station showed that he had planned the move to India as early 
as March 2008. He had communicated his intentions to the 
principal of the children's elementary school without my 
knowledge. In November 2008, 1 month prior to the trip to 
India, Sunil Jacob had obtained a status for him and the 
children known as OCI, overseas citizen of India, that would 
allow him and the children to stay for an extended period of 
time in India, since the children are American citizens.
    Sunil Jacob, an American citizen, deceptively abducted my 
American citizen children and is staying in India, out of my 
reach and that of the Hague Convention indefinitely. Please 
note that India does not honor dual citizenship. I came to know 
that he has two software firms in India, and recently got 
information that he is the owner of a resort in India that was 
registered in 2007. That was when we were still married. I also 
came to know that he is remarried. Very recently, Sunil Jacob's 
family member confirmed with the Plainsboro Police that the 
separation of the children from me was planned well in advance.
    Frustrated but determined, on May 14, 2009, I filed a 
petition with the Superior Court of New Jersey for the custody 
of our children. Sunil Jacob tried to delay the matter by 
arguing that the U.S. did not have jurisdiction to hear the 
case, but the American courts, both at the Superior Court and 
appellate levels, have held that jurisdiction was indeed proper 
in the Superior Court family part. My ex-husband was in 
contempt of the court order granting me parenting time over the 
children's winter break, although he participated in the 
hearing over the phone. The flight information was conveyed to 
Sunil Jacob by the U.S. Consulate, my American attorney and me.
    The honorable New Jersey Superior Court granted me 
residential and legal custody of the children. The Plainsboro 
Police and the FBI have issued arrest warrants against Sunil 
Jacob. Please note, in 2007, while Sunil Jacob was working at 
Citigroup, he was involved in an unknown incident at his office 
that resulted in an FBI inquiry on him.
    It is significant that Honorable Barry A. Weisberg, judge 
of the Superior Court family part in New Jersey, not only 
granted me sole custody of the children and demanded their 
immediate return to the United States, but also said that Sunil 
Jacob must comply with a psychiatric evaluation and risk 
assessment upon return of the children. Clearly, Judge 
Weisberg, an experienced jurist in the family part, felt that 
Sunil Jacob's conduct was evident of a man who was disturbed.
    I fear for the safety of the children, and their emotional 
well-being, in their father's care. Despite having kidnapped 
our children, Sunil Jacob filed for custody of the children in 
the Indian courts. The case is currently pending at the 
Honorable Supreme Court of India. In addition to wrongfully 
keeping the children from me, Sunil Jacob has thwarted every 
effort I have made even to speak to my children and say that I 
love them.
    Beyond the kidnapping, Sunil Jacob continues to file false 
cases against me and my family in India, and is brainwashing 
the children against their own mother. He believes that if the 
campaign of harassment becomes too much for me to bear, we will 
back away from the quest to regain custody of my children.
    He must learn that this will not happen. He must be held 
accountable for his actions. I have put everything I have in my 
mission to be reunited with my children. I have rebuilt myself 
financially and made a viable career path for myself. I have 
made a new home for my children to return to, as I was forced 
to sell the marital home to satisfy the debts my ex-husband 
created.
    It must be remembered that America is the children's home. 
It is where they were born. The children went to school in 
America, in the culture that they love. They must be brought 
home to the American soil. I implore the Congress to assist me 
in righting the wrongs that have been done to me and to my 
children by my ex-husband, Sunil Jacob. Every day I awaken with 
the heartwrenching reality that I am separated from my children 
whom I love more than anything else in this world.
    I have done everything I can think of in this nightmarish 
situation, and I will never give up on my children. Yet I am 
here because I can no longer fight the good fight on my own. I 
respectfully request you, the Members of Congress, to help me 
make my voice heard in a way that shall be meaningful and allow 
me to be reunited with my children, who need the love and the 
nurturing of their mother.
    Please help me to put an end to the nightmare that Sunil 
Jacob has created for my family. Please help my precious 
children and me. I do not want to know, and cannot imagine, a 
meaningful life without them. Please act, not just for the 
benefit of the two innocent children and their brokenhearted 
mother. Please think of all the other children and parents 
caught in similar nightmarish situations due to hostile-minded 
parents who abduct the children to overseas nations.
    Thank you from the bottom of my heart for hearing my humble 
and fervent plea during your otherwise pressing schedules. I 
shall always be grateful for the time and the opportunity to 
share my story and that of my children. Thank you.
    [The prepared statement of Ms. Philips follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
        
                              ----------                              

    Mr. Smith. Ms. Philips, thank you so very much for that 
very moving testimony. We are here because we want to be here. 
When someone says that they don't have the time, they have 
stated not a fact but a priority.
    And the idea behind not just this hearing, and the series 
of hearings that we have had to build the case, to have cases 
that have failed because civil remedies proved to be 
ineffective and inadequate, is that we need to take it to the 
next level. Reasonable people, a reasonable man or woman, would 
say, ``Okay, if that didn't work, what else do we have? What 
other tools might we put into that toolbox?'' And that is what 
the legislation is all about. Because there are far too many 
people just like this very distinguished but harmed panel that 
are not being well served. So, thank you for your testimony.
    Mr. Elias?

STATEMENT OF MR. MICHAEL ELIAS, FATHER OF CHILDREN ABDUCTED TO 
                             JAPAN

    Mr. Elias. Congressman Smith and distinguished members of 
the subcommittee, my name is Michael Elias and I would like to 
thank all of you once again for this opportunity to share my 
personal experience involving international parental child 
abduction with you once again.
    From August 2003 to November 2007, I was a sergeant in the 
United States Marine Corps. I am currently employed as a Bergen 
County Sheriff's Officer in the State of New Jersey. I was 
stationed at Camp Foster, Okinawa, Japan, from 2004 to 2005, 
where I met my future wife, Mayumi Nakamura. Shortly 
thereafter, my unit returned to Camp Lejuene, and Mayumi 
returned to her hometown of Saga, Japan. We remained in 
constant contact, and in late September I received a startling 
phone call from Mayumi informing me that she was 5 months 
pregnant.
    I was stunned. However, at the same time I was excited at 
the prospect of becoming a father. Therefore, in October 2005, 
Mayumi came to the United States and we were married at an 
intimate ceremony in Rutherford, New Jersey. I then purchased a 
home for us in Jacksonville, North Carolina, and our first 
child, Jade Maki Elias, was born on January 5, 2006.
    In March 2007, I was deployed to Iraq for a 9-month tour of 
duty while Mayumi was expecting our second child. She then 
moved in with my parents in Rutherford, New Jersey, so Mayumi 
and Jade would have full support and the assistance of my 
family.
    On August 2nd, 2007, my son Michael Angel Elias was born at 
the Hackensack Medical University. During my deployment, Mayumi 
started a relationship with a Japanese national. His name was 
Kenichiro Negishi. He worked as a travel agent in Manhattan. 
Sadly, a few months after my return, Mayumi and I separated, 
and on October 29, 2008 I was awarded joint custody of my 
children.
    On that day, the judge clearly ordered that the children's 
passports, both American and Japanese, be turned over because 
it had clearly been demonstrated that my wife was a flight 
risk. I felt I did everything I could to ensure the safety and 
well being of my children. I was confident that I had the 
reasonable expectation that my American-born children would be 
protected from being kidnapped to Japan.
    Mayumi was an employee of the Japanese Consulate in New 
York City, issuing visas and passports. She used her position 
at the Consulate as a tool to carefully collaborate the 
kidnapping of our children. Mayumi and Kenichiro flew to 
Chicago with the two of my children to obtain illegal 
replacement passports at the Japanese Consulate in Chicago, 
where she and her boyfriend Kenichiro exited the country via 
Chicago's O'Hare Airport on December 6, 2008 with Jade and 
Michael. I still have in my possession their original 
passports.
    My family and I were horrified and sickened by Mayumi's 
actions. We have repeatedly attempted to contact Japanese 
Consulates in New York, Chicago, Washington, DC, and continue 
to receive no cooperation whatsoever. Shortly after she arrived 
in Japan, Mayumi contacted me and told me that she had 
unilaterally decided that she would raise our children in 
Japan. When I explained to her that she had kidnapped our 
children, she maintained, and I quote, ``It's not kidnapping. 
My country will protect me.''
    Thereafter, I was awarded full custody of our children in 
the Superior Court of Bergen County, New Jersey. The judge 
ordered the immediate return of the children to the United 
States from Japan by means of the Hague Convention. 
Unfortunately, the judge was unaware that Japan was not a 
signatory of the treaty, something that Mayumi seemingly 
understood.
    Since the kidnapping, my family and I have pleaded with 
Mayumi to return our children to the United States, assuring 
her that there was no criminal charges pending. Since January 
2009, my family and I continue mailing gifts, cards, care 
packages to the children, with no responses or acknowledgement. 
After numerous emails and telephone calls, on January 5, 2010 I 
was granted the privilege to see my children via Skype on my 
daughter's fourth birthday. Although it was very hard to see my 
children through the monitor, it was very satisfying to see 
them happy to see me. My daughter, Jade, looked at her mother 
in heartache and said to her, ever so softly, something in 
Japanese. When I asked Mayumi what Jade had said, she replied, 
``She wants to be with you.'' The monitor immediately went 
back, and that was the last time I saw my daughter's face.
    Prior to our final contact on Jade's birthday, Mayumi 
assured my parents, and only my parents, they would be allowed 
to visit Jade and Michael. In February 2011, my parents flew to 
Japan with the assistance of the United States Embassy in 
Tokyo, accompanied by Congressman Smith, his Chief of Staff, 
Mary Noonan, and my attorney, Patricia Apy.
    Congressman Smith, along with Ms. Noonan and Ms. Apy, spent 
every waking moment meeting with Japanese officials, trying to 
convince Japan to sign and ratify the Hague Convention. 
However, the Hague is not retroactive, so it would provide no 
benefit to the nearly 400 children abducted prior to the Hague 
implementation. So they urged Japan to prepare a memorandum of 
understanding to accompany their signing Hague which would 
cover the hundreds of pre-existing cases.
    They also contacted Mayumi to ask my parents if they could 
visit their grandchildren. However, Mayumi denied any access 
for it. She told the Embassy she would not accept their calls, 
and she told them to go home. While in Japan, my attorney, Ms. 
Apy, spoke with the Deputy Foreign Minister of Japan, and he 
informed her that the Japanese Government was moving forward 
with the prosecution of Mayumi. After numerous requests, we had 
still not received any information about the investigation or 
prosecution of Mayumi's case until December 2012.
    I received a call from my case worker from the Office of 
Children's Issues, Ms. Leah George, informing that she had 
received information regarding Mayumi's prosecution. However, 
she was unable to open the document or read Japanese, so we 
waited until February 21, 2013 for the letter I hold before you 
today from the Saga District Prosecutor's Office in Japan.
    And it says, ``Notice,'' and I quote, ``This notice is in 
response to your inquiry regarding the criminal case of 
violation of the Passport Act. With regard to this case, after 
conducting necessary and sufficient investigation, the 
prosecutor decided not to institute prosecution. Decision of 
the non-prosecution was made on October 29, 2010. If you have 
any further questions regarding this notice, please contact 
International Affairs Division, Criminal Affairs Bureau or 
Ministry of Justice, Japan. Yours truly, Takuya Komagata, the 
public prosecutor.''
    The timing on this decision clearly demonstrates the total 
disregard that Japan has for Americans and our children. This 
decision was made 2 years ago, and only now I am receiving the 
outcome? My only hope was that Japan would hold Mayumi 
responsible for her crimes, but like she so calmly stated, ``My 
country will protect me.'' And they have.
    Since December 2008, there has been no visual confirmation 
on the whereabouts or the well being of my children in Japan. 
Mayumi had agreed to a welfare visit by the Office of 
Children's Issues. This occurred a few years ago, and at the 
last minute Mayumi informed the case worker she would meet them 
at a local mall. Mayumi showed up with a photo album of the 
children that was good enough for the case worker. However, it 
was highly unacceptable for me.
    Right up to this day, no one from the State Department or 
the American Embassy in Japan can say they have seen my 
children, know their whereabouts, and are certain of their well 
being. Mayumi is running the show, and she is being permitted 
to do so. It is haunting to know that my children, along with 
thousands of other children from around the world, will suffer 
in silence because they are afraid to ask about their families 
who were left behind, in fear of disappointing and upsetting 
their abductor. It appears that their fate has already been 
determined.
    I cannot think of anything more important than the fate of 
my children. What about all the American citizens who have been 
ripped from their homes in this country against their will? 
What about my children? I don't know how to pick up the pieces 
and move on. My pieces are in Japan, a country that has 
willingly, knowingly aided and abetted the abduction of 
children from all over the world, a country that refuses to 
prosecute my wife for crimes that are recognized worldwide as 
fundamental human rights violations.
    Does the word parental in front of kidnapping make it less 
of a crime? If so, for whom? You, or the children involved, the 
children who have been silenced, sacrificed and brainwashed, 
the very children who have been ripped from their only life 
they ever knew, the family, the love, and now will be 
programmed to never look back? This is what it becomes, not 
only parental cruelty, it becomes child abuse. Can it be Japan 
has always felt this way, a private family mater, and never 
really looked at it from the eyes of children, my children?
    I often wonder when I look in the mirror why I don't see me 
anymore. I see a reflection looking back at me, watching me 
look at him. It makes me wonder if this happens to my children. 
What do my children see when they look in the mirror? Will they 
ever know who they really are? Do they think like me? Do they 
act like me? Do they dream with me? What does Mayumi tell them?
    As long as our Government allows Japan to continue to 
disregard our children, the number of parental kidnappings will 
continue to rise. Countless families will suffer the same 
heartache again and again, and Japan and its abductors will 
remain in control. It is time for a change. I have been waiting 
for 4\1/2\, along with hundreds of other parents, some who have 
been waiting for decades. There is not a day that goes by I 
don't pray for the return of my children. I am depending on 
Congress an the State Department to make that change.
    Thank you.
    [The prepared statement of Mr. Elias follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
                              ----------                              

    Mr. Smith. Thank you very much, Mr. Elias. Thank you for 
your service to our country in Iraq. And there are some folks 
that stayed back from the Office of Children's Issues, and I do 
hope they will take your letter back. Because I had asked while 
I was in Japan, asked it at hearings, if we were pressing the 
prosecution of your wife for the passport fraud, among other 
things, what was the investigation? And I am wondering if we 
ever got a response back, and if not, why not. And to realize 
that a decision made on October 29, 2010 was not conveyed to 
us, the U.S. side, and to you for so long, is absolutely 
unconscionable.
    And leaving every other issue aside, that kind of 
nonresponsiveness suggests a relationship with an ally that is 
not what it purports to be. So we will follow up on this, and I 
do hope you folks will take back that letter and check into 
that, because that is 2 years.
    Mr. Bower?

 STATEMENT OF MR. COLIN BOWER, FATHER OF CHILDREN ABDUCTED TO 
                             EGYPT

    Mr. Bower. Thank you, Chairman Smith and honorable 
committee members. Thank you for allowing me to be here today 
to testify in front of you.
    My name is Colin Bower. And I am here today for one reason: 
To ask the U.S. Government to please stop giving Egypt billions 
of dollars until they release my two American, kidnapped 
children. David Goldman and the respected chairman can attest 
to the fact that this has worked before. And I think that, once 
you have heard the facts in this testimony, you will be 
compelled to agree that we can't continue to blindly fund a 
state that has sponsored, aided and abetted crimes against not 
only Americans, but defenseless American children.
    In the way of background, despite my having sole legal 
custody of my sons, Noor and Ramsay, they were kidnapped from 
the United States to Egypt in August 2009. Today's testimony 
marks the second time in the past 2 years I have testified in 
front of this honorable committee. Meanwhile, my boys remain 
illegally held in Egypt, as do 20-plus other American children, 
including Blake Cleveland, whose father just called me 
yesterday. All in danger, suffering child abuse and having 
their human rights compromised.
    To these children, their parents, and to Noor and Ramsay, 
when you watch or read this, please know that you are in my 
prayers, and it is my sincere hope that this testimony leads to 
the U.S. Government acting to bring each and every one of you 
home.
    Year after year, the U.S. Government sends billions of 
taxpayer dollars to the Government of Egypt with the U.S. 
Department of State using waivers under the guise of national 
security to get around conditions Congress tries to put on the 
aid. As to whether Egypt deserves this aid, please note some of 
their behavior since 2009, when my children were abducted, 
during which they continued to receive their annual billion-
plus dollar stipend.
    They have engaged in state sponsored crime by aiding and 
abetting the kidnapping and illegal detention, child abuse, of 
at least two American children. They provided the false 
passports and transportation for the kidnapping, and they have 
abetted the kidnapper through ongoing protection. They have 
directly threatened U.S. national security. They issued false 
Egyptian passports for the purpose of committing a crime in the 
United States. And for nearly 4 years, they have refused to 
respond to formal requests from the U.S. Government for 
information around how or why these passports were issued. This 
is in direct contravention of the bilateral mutual legal 
assistance treaty. The Government of Egypt has refused to 
acknowledge the Hague Convention principles, or to commit to 
joining the Convention, and they continue to regularly commit 
flagrant human rights violations.
    If supporting this country without conditions is American 
foreign policy, then American foreign policy isn't working Not 
only are we not getting what we pay for, Egypt has thumbed its 
nose at real reform and at our leaders. I have seen my boys 
less than a handful of times since they were taken. Each visit 
was in Egypt, and each was attended by a large band of Egyptian 
relatives and government security personnel who watched the 
boys' every move, scrutinized the boys' every word. The boys 
were understandably anxious, and they behaved unnaturally.
    My last visit with them was in January 2012. Both my mother 
and myself, and the U.S. Embassy personnel who attended this 
meeting, noted that it was clear the boys wanted to interact 
with me. They wanted to be with me. And that is precisely, I 
believe, the reason why Mirvat el Nady, their mother, has 
forbidden me any contact with them since that time.
    I practice one-way communication in the form of posts that 
I send to them on a committed Facebook page every week. It is 
all I can do.
    In 2010, I fought for and won an Egyptian court order 
allowing me to visit my children regularly. I have made eight 
separate trips to Egypt to see my boys with no success despite 
this order. On these trips, I sat alone in a park with bags 
full of letters, toys, magazines, sports equipment, other 
mementos, waiting 6 hours hoping to see, speak with and hold my 
boys again. They were never brought to these visits.
    I have been forced to retain new counsel in Egypt at the 
behest of the State Department with no recourse. I don't know 
when I will see them again next. I don't know if they will ever 
come home. All I know is that I will never stop fighting.
    It is important to note that the el Nady family has direct 
ties to the Egyptian Military. They started the only private 
sector yeast factory in Egypt in 2005 through a company called 
EGYBELG. Like the production and distribution of all Egyptian 
necessities, this remains under the control of the Egyptian 
Military. The ties between the el Nady family and the military 
were strong under the Mubarak regime, and they have persevered 
into the Morsi regime. The el Nady family has been allowed to 
ignore both Egyptian and U.S. court orders, and refused 
communication with me, U.S. Embassy personnel, and the Good 
Intentions Subcommittee, which is a committee which includes 
senior Egyptian officials appointed to address issues specific 
to American children who have been abducted to Egypt.
    The majority of U.S. aid is directed to the Egyptian 
Military, which has been the bedrock of the Egyptian side of 
our bilateral relationship since the Camp David Accords in 
1978, and the U.S. Government has seemingly served at the 
pleasure of the Egyptian Military, apparently not wanting to 
upset the status quo since the kidnapping.
    Now, this is not to say that the U.S. Government has not 
made substantial efforts on behalf of Noor and Ramsay. On the 
contrary, pleas for Noor and Ramsay's return have been made, 
both face to face and in writing, by many senior officials in 
our Government, including the Vice President, two Secretaries 
of State, the Attorney General, two U.S. Ambassadors to Egypt, 
the chairman of the Foreign Relations Committee, and ranking 
members of House committees and subcommittees.
    In Congress, resolutions calling upon Egypt to return Noor 
and Ramsay passed in both the House--thank you, Mr. Chairman--
and the Senate, including through this committee. Further, as 
the chairman of the Senate Foreign Relations Committee, now-
Secretary of State John Kerry, said, his last conversation with 
President Mubarak was what he called a half-hour shouting match 
on this issue. His call to President Mubarak, and his call on 
President Mubarak to return the two boys, was to no avail.
    Secretary Kerry has continued to focus on this issue 
directly at the highest levels in his dealings with Egypt since 
he has become Secretary. Yet, I can't tell you where my boys 
are, when I will see them again, or when or if they will ever 
come home. Since 2009, these pleas from the U.S. Government 
have been made directly to former President Mubarak, current 
President Morsi, the Supreme Council on the Armed Forces, SCAF, 
the Egyptian Minister of Foreign Affairs, the Egyptian Minister 
of Justice, and other various Egyptian ministers and leaders.
    I remain incredibly grateful for all the assistance of all 
U.S. officials involved, all Members of Congress involved, the 
chairman of this subcommittee, as well as Secretary Kerry, in 
their sustained attention to bringing home Noor and Ramsay.
    Despite all of this, the Government of Egypt has been 
completely nonresponsive. They have refused to give the 
location of the children. They have refused to allow welfare 
visits with the children. They have refused to abide by the 
terms of MLAT. They have refused to enforce court orders. They 
have refused to acknowledge the rights of Noor and Ramsay. They 
have refused to return the children. They, along with the el 
Nady family, continue to aid and abet a wanted felon.
    And this nonresponsiveness has gone entirely without 
consequences. In fact, the United States has rewarded Egypt 
during this time by continuing to send them billions of U.S. 
taxpayer dollars and acting as if it is business as usual. The 
State Department has simply said, in a TV interview recently 
and in private, that our relationship with Egypt is 
complicated, and there are other important issues on the table.
    I have to ask the basic questions: What is more important 
than the safety of our children? What message are we sending to 
the perpetrators of crime against American children when we 
continue to support the perpetrators, unchecked and without 
consequences? Obviously, as Noor and Ramsay's father, I am 
devastated. But as an American, I am appalled. The inability of 
Mirvat el Nady to responsibly parent is outlined in our divorce 
judgment.
    It is also outlined in more detail in the House Resolution 
193, which includes analysis from various mental health and 
other professionals who evaluated Mirvat el Nady during the 
divorce proceeding and recommended that she receive inpatient 
care. I don't want to disparage the boys' mother in this forum, 
but the text in this resolution is chilling, as are the 
implications of allowing an unfit parent to watch over Noor and 
Ramsay in such a volatile social, political and religious 
environment such as exists in Egypt today.
    Obviously, a fit parent would never have kidnapped her 
children, alienated them and forced them to be estranged from 
their legal guardian, myself, a healthy father who provided for 
them and simply loves them more than anything else in this 
world. The combination of the instability of Mirvat el Nady, 
the instability in Egypt, and the nature of the recent events 
at the marathon in my hometown of Boston make my stomach churn 
with fear for the underlying safety of my boys. I am literally 
scared to death to whom she is outsourcing the parenting or 
mentoring of my children, what they are being taught, how they 
are being treated.
    What will be their future if I am not able to protect them, 
if their government has forsaken them for other important 
issues? Will they be led down a dark and mortal path? To 
Ambassador Jacobs' point earlier on, I don't see how this is 
any less terrible than trafficking. I don't see the difference. 
I actually cannot bring myself to articulate my fears on this 
front. All I can say is I pray my Government will change tack 
and do what is necessary to help me protect my boys before 
these fears become a full, or even a partial, reality.
    There are many things we can do immediately to protect our 
children. With regard to Egypt, not surprisingly, several 
include withholding U.S. and U.S.-controlled financial 
assistance pending certain actions. Of course, I understand the 
de facto services contract we have with Egypt, which is the 
most populous and strategically important Arab State. But I 
have to say, when one side kidnaps your children and ignores 
your leader, I say all bets are off. We have to start holding 
Egypt accountable. It is not a question of applying financial 
pressure to influence their politics, but of doing the right 
thing for us as Americans, to protect our citizens, to protect 
our children, and to protect our own moral credibility.
    I have some recommendations, Mr. Chairman. The first 
recommendation regards prevention. I think we need better 
controls in place to protect against the unlawful removal of 
our children to foreign countries. This includes better checks 
at the point of departure by Homeland Security and agreements 
with foreign carriers. Prevention is the easiest way to help 
cure and protect our children from being subjected to what is 
very much a nightmare.
    In the case of Noor and Ramsay, for example, Mirvat el Nady 
kidnapped my children despite the following flags: The boys 
were providing Egyptian passports in false last names. These 
Egyptian passports had no U.S. entry visas, leading to the 
obvious observation that my boys were in the United States 
under another, legitimate, auspice. These Egyptian passports 
were issued in a family name different than that of el Nady, 
therefore providing no connection between the children and the 
kidnapper. The kidnapper had no U.S. court or other 
documentation denoting her legal standing to be with the 
children. The airline tickets were purchased at the ticket 
counter, in cash and one way. The National Transportation 
Safety Board and airlines operating in the United States need 
to be held responsible for failing to act on any and all of 
these flags. Failure to do so is an inexcusable breach of 
security and, frankly, remains a huge risk to our children.
    Law enforcement. The FBI just did not act quickly enough to 
gather information tied to this crime, including identifying 
those who aided and abetted. This evidence, primarily email 
records, was deleted by the time the FBI started looking more 
deeply into this matter. If they had moved with the requisite 
urgency, further leverage could have been brought against those 
responsible, which could have aided in the return of the boys. 
Further, neither have the FBI been aggressive or committed 
enough in finding those that are aiding and abetting this 
fugitive and bringing them to justice.
    The enforcement of existing treaties. Because Egypt 
provided false passports for the purpose of committing this 
crime in America, a technique used in multiple terror attacks 
against our country, they must be held accountable to the MLAT 
agreed to by both our countries to protect our citizens from 
crimes just like this one. We need to see the MLAT enforced, 
the extradition of Mirvat el Nady and her co-conspirators, 
before we provide ongoing meaningful financial assistance to 
Egypt.
    Probate orders. We must tie U.S. financial aid to Egypt's 
agreement to recognizing their existing probate orders 
involving custody decisions. We have acted in that capacity in 
the United States, and I believe that we should act the same 
way, and the country harboring the fugitive should issue a 
mirror order consistent with that preexisting order.
    Human rights and the Hague Convention. We have to tie U.S. 
financial aid to Egypt's demonstration of commitments to human 
rights, including the rights of children, as evidenced by 
acceptance generally of the terms of the Hague Convention, 
adherence to the probate orders mentioned above, as well as 
Egypt's ultimately becoming a signatory to the Hague. In 
abduction cases, this can be sequentially evidenced by 
immediate wellness visits, normalized parental visits, and, 
where probate orders exist, by the immediate return of the 
children to their rightful home in the United States.
    Sixth, preclusion of blanket waivers. When Congress ties 
U.S. aid to protections for human rights and other like 
measures, neither the U.S. State Department nor the White House 
should be able to toss aside these congressional conditions via 
general waivers under the cloak of national security. Often, 
these congressional measures speak to the heart of our national 
security, including the protection of our children, which I 
consider to be our national treasure.
    Seventh, freeze Egyptian assets in the U.S. In conjunction 
with tying aid to Egypt to specific measures, Congress should 
similarly freeze Egyptian assets held in the United States 
pending compliance with these measures.
    And lastly, Mr. Chairman, I would like to request a report 
by the U.S. Government Accountability Office, the GAO, to 
conduct a study focusing on the issue of all child abduction in 
Egypt, including the role of the Government of Egypt in the 
abduction and the ongoing abetting of the abductors.
    Mr. Smith and other committee members, I thank you for the 
invitation to speak today, for your attention to my testimony, 
and for your consideration of this most important of issues.
    [The prepared statement of Mr. Bower follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Bower, thank you very much not only for the 
very moving testimony, but also for those very significant 
recommendations, including the last one, the GAO. We will 
follow up on all of those, and the red flags that you 
referenced, I think, were telltale signs.
    Mr. Bower. Absolutely.
    Mr. Smith. And all were missed.
    Mr. Bower. Yes.
    Mr. Smith. So thank you.
    Mr. Bower. Thank you, sir.
    Mr. Smith. Mr. Goldman?

  STATEMENT OF MR. DAVID GOLDMAN, FATHER OF CHILD ABDUCTED TO 
                             BRAZIL

    Mr. Goldman. Good afternoon. I am David Goldman, and I am 
honored and privileged to be here today, and I thank you for 
having me. And thank you for recognizing the fact that there is 
a tragic issue upon us, and hopefully we will be able to figure 
out a way to get you the support that you need from your 
colleagues, across the aisle and on your side of the aisle.
    And I think that is what we really need to do here, is 
create a movement. It is imperative that we don't continue to 
have parents that just suffer on a daily, on a moment-to-moment 
basis, just looking for any second of relief from the pain that 
is constantly searing in them.
    I first would like to just point out a couple of things 
that I heard before I go into my testimony. Mr. Cicilline, and 
I hope I am pronouncing his name correctly, he mentioned the 
fact that often times that these abducting parents are actually 
fleeing from an abuse case.
    Well, more often than not, these abducting parents create 
an alleged abuse to keep or thwart the return of the child, 
even after maybe months of years of custody disputes within 
this country, when there is not one evidence or report of 
abuse, which is very alarming in the fact that that is like a 
front and center loophole in the Japanese acceptance of their 
signing onto the Hague, is that if there is abuse, the child 
stays. So that is basically opening the door for any parent to 
come and say, ``I am abused,'' and the child never returns. 
That is very alarming, and that is a big red flag in my 
assessment.
    As well, Mr. Meadows mentioned that we are a global 
society, and in this global society we are going to have 
companies that are working with each other. Johnson and Johnson 
is working with Brazil, all these airlines and what have you, 
and there are going to be marriages. There is going to be love; 
there are going to be marriages. And in our own country, the 
divorce rate, unfortunately, is greater than 50 percent. You 
put two cultures together, and they are going to have issues as 
well.
    And the rate of abductions is growing at an alarming, 
exponential rate, and we really need to address this. And thank 
you, again, for holding this hearing, and for you recognizing 
the importance of this issue.
    The tools that we keep talking about that Ambassador Jacobs 
didn't seem to favor, more often than not if we do have them in 
our toolbox, just knowing that we do have them to use would be 
enough for these countries to return our children, especially 
if we start to use the tools, as are pointed out initially in 
the Sean and David Goldman Abduction Prevention and Return Act.
    There is a list right here, and it starts out with a 
private demarche, an official public demarche, a public 
condemnation. And they can see, ``Uh-oh, we are getting to the 
big ones. They are using them. Let us get these children. This 
is a thorn. We don't need these children. They are not ours.''
    We are not asking, Americans are not asking these countries 
for a favor. We are expecting them to abide by the rule of law. 
And I keep hearing about these delays and these stall tactics, 
and somebody mentioned Article 13(b), grave risk, and I had to 
really point that out. That is the biggest misuse of a denial 
to return a child. Grave risk is, in fact, an abuse or a 
hostile situation that that child would be returned to, not 
because the abducting parent had been allowed to delay and 
obfuscate the court system in the country where they had 
kidnapped the child for so long that the court could now say, 
``It is a grave risk to return the child back to its home 
state, back to its habitual residence, back to the competent 
court of jurisdiction, because our courts have been delayed for 
so long that the child is now settled, to return them back to 
their home where they were abducted would be a grave risk, 
because it would disrupt the children's life,'' as they were 
supposed to return that child within 6 weeks of the abduction.
    So to use that, and these judges that use that so often, 
saying the child has settled, that is something that is 
completely wrong and it needs to be addressed, and that Article 
13(b) really needs to be outlined on what the purpose of it is.
    So I will go back to my written testimony now.
    And I just want to say, my beginning is, I understand what 
these three parents are going through. I walked in their shoes 
for 5\1/2\ years. I did live in a world of despondency and 
desperation, with that searing pain through my entire being. 
Everywhere I turned, I did see an image of my abducted child. 
Sleep was hard to come by, and never restful. If I smiled, I 
felt guilt. When I saw children, whether it was in a store, a 
park, on television, anywhere, it killed me. It killed me. It 
was too painful. For the longest time, I couldn't be around my 
own family members because they had children. I couldn't be 
around my nieces and my nephews, it was too painful. ``Where is 
my son? Where is my child?''
    He had been abducted. He was being held illegally. He was 
being psychologically, emotionally, and mentally abused. I 
needed to help him. I needed to save him. He needed me, his 
father. It was our legal, our moral, our God-given right to be 
together as parent and child. I did everything humanly 
possible, leaving no stone unturned, but for so many years the 
result remained the same: My son, as these parents' children, 
remained kidnapped, abducted, in a foreign country. They are 
not home with them. And it is a crime. Every second, every day, 
the crime continues.
    Finally, after Congressman Smith, who is chairing this 
hearing today, became directly involved with my case, he 
traveled to Brazil with me on multiple occasions. Sean and I 
were reunited after a nearly 6-year separation as a result of 
his abduction. But it took not only Congressman Smith's direct 
involvement, having meetings with high officials in Brazil, but 
it took worldwide media attention, the personal outspoken 
support of former Secretary of State Clinton and President 
Obama, and ultimately U.S. Senator Frank Lautenberg, after the 
urging of Congressman Smith was saying, ``Hold this trade bill. 
Hold this trade bill.''
    There was a trade bill that was coming up, and Congressman 
Smith kept asking him to hold it. Finally, Senator Lautenberg 
did decide to hold the trade bill to make it possible and help 
return my son. And I must say that countless others also became 
involved and joined in my fight, making it essentially their 
fight, which made it our fight. And I am forever indebted and 
humbly grateful for every ounce of their support.
    Which leads to my last point of this paragraph, why I 
wanted to say all the help I got. I also know it is next to 
impossible for any single left-behind family to garner the 
support which my family was so extremely fortunate to receive. 
These folks don't have it. But I hope, today, collectively, we 
will start to change that. We move mountains. We all came 
together. Somehow, it was a perfect storm that helped me. But 
these folks are like I had been, and they need help. Their 
pleas are falling on deaf ears, as mine were for so many years. 
And these are just three of the faces of thousands upon 
thousands.
    This is my fourth time testifying before Congress on this 
issue, and I am disappointed to report that the situation with 
international child abduction to both Hague and non-Hague 
countries continues to worsen since the return of my son, Sean, 
December 2009. This hearing today, by my count, is at least the 
20th hearing--the 20th hearing--on this issue, dating back to 
the 1980s. Yet today, over 30 years later, the problem 
persists. The number of abducted children continues to rise at 
an alarming rate, and precious little is being done about it.
    As I prepared to testify today, I spent time looking back 
at the extensive record of congressional testimony on this 
issue over the years. So many important and meaningful 
statements have been made that I felt the most effective way to 
communicate my message is to quote these officials and their 
testimony.
    I would like to start with a brief quote from Congressman 
Walter Jones of North Carolina from a session on the House 
floor when my son Sean's case was being discussed which I 
believe accurately sums up the issues we are here to discuss 
today. Congressman Jones said, ``The world should be about 
bringing families together.'' Simple. And he is absolutely 
correct. Let us work together to bring more children home and 
more families together. These American children, left without a 
voice as a result of their abductions, they deserve better. 
They don't have a voice. We are their voice.
    The following is a quote from former Congressman Barney 
Frank, from remarks made at a July 2011 congressional hearing 
on international child abduction. And this is very important. 
This goes again to what we were discussing with Ambassador 
Jacobs.

        ``We sometimes hold back in using our legitimate moral 
        authority because we worry about somehow alienating 
        other countries. Now, I want America to be reasonable 
        and fair in its dealings with other people, but as a 
        general rule, it does seem to me that most countries in 
        this world need us more than we need them. I don't want 
        to abuse that, but I think we sometimes assume that we 
        can't press hard because people will get mad at us. A 
        reasonable assessment of what the relationships are 
        should allow us to press cases on their merits and not 
        be held back by some fear that we will somehow lose 
        influence.''

    That was from Mr. Frank, very profound and still to this 
day very pertinent and relevant.
    Now I turn to the remarks made by Ambassador Susan Jacobs 
at that same hearing.

        ``In non-Hague countries we rely on quiet diplomacy, 
        knowledge of local conditions and respect for local 
        customs, and often less visible means to try to resolve 
        an international abduction case. The Hague 
        Convention,'' as she said again today, ``remains our 
        best hope of resolving international abductions. It is 
        the first subject that I bring up with foreign 
        governments during my travels on behalf of the 
        Secretary.''

    Well, these mechanisms, these quiet diplomacies, while they 
may be effective, we need more. Obviously, these mechanisms 
used to date to return our children are failing.
    We have some statistics here. Over the last 5 years, 2008 
to 2012, over 7,000 American children have been abducted from 
the U.S. I mean, 7,000. If they were all abducted at one time, 
we would have the U.S. forces to go invade wherever they are 
and bring them home. But because there are 500 here, there are 
200 in this country, 100 in this country, it is not that big of 
a deal. Mexico is a great return, she said? It is not. Five 
hundred are taken every year, and what is the Ambassador to 
Mexico? His first thing is looking at arms, arms control, 
border crossing, the handful in his mind of children aren't a 
priority, and they need to be.
    For the calendar year of 2008 to 2010, the State Department 
reported an increase of almost 3,000 abducted children, yet the 
number of children--this is one you need to pay close attention 
to. In the last 2 years, there has been an increase of 3,000 
abducted American children, yet the number of children whose 
cases are active dropped from 2,800 to 2,400, and are now 
1,900.
    So what they are saying is, we have more cases, more 
children and more cases being opened every year, yet the amount 
of open cases is dropping. That does not add up. These figures 
do not add up. And it is in their stat sheet. And we need 
transparency. That is one thing that we asked before. Some of 
these statistics, they don't show any longer. And we need 
complete transparency from the State Department on all the open 
cases.
    And these are only the reported cases, and the reported 
cases that they have. We also don't know exactly what 
quantifies a report. An agreement between two parents closes a 
case, or they count it as a return? The parent losing the case. 
I know they close cases because the case is lost. The country 
where the abducting parent takes the child decides they are not 
bringing their child home, so they close the case. And then 
they check that off as one less case they are working with.
    But in the meantime, that parent is still somehow begging 
on his knees every night, praying for the return of the child, 
even though the state and our country failed them and gave up 
on them.
    And there are some more stats, but I will go back into what 
we need to do in our State Department as a complete cultural 
change. And nothing short of being extremely bold and 
principled is going to do much to change the status quo and the 
corresponding playbook for handling international child 
abduction cases.
    Left-behind parents, especially ones whose children have 
been abducted more recently, often make the mistake of thinking 
that the State Department is competently handling their cases 
and that countries routinely return children as expected. And 
that is one of the things that Ms. Apy said. Judges here, if 
they look at a country and they say they are a signatory to the 
Hague, when a parent is in a divorce or a custody dispute and 
that parent goes to the judge and says, ``I want to go back to, 
say, Brazil, because that is where my family is,'' and the 
judge says, ``Okay, Brazil is a Hague country.'' And the other 
parent is saying, ``No, they have already said they are going 
to go and they are not going to return my child,'' and the 
judge is going to say, ``Yes, this is a Hague country. The 
parent can go back, because then they will return them if the 
child is''--no, it doesn't work that way.
    So we need to educate our judges as well, and they need to 
see that these countries aren't abiding by the law and 
returning the children as the Hague Convention requires, which 
is also a very important aside.
    In reality, the State Department and Foreign Services have 
been involved in these cases almost since the founding of 
America. We have always been a country of immigrants, and these 
issues have always existed and been escalated to the State 
Department. But what these parents, and what I failed to 
appreciate, is that it is not incompetence or ignorance that 
leads to the mishandling of abduction cases, but rather failure 
to enforce our policy.
    All the things that I was listening to today, the State 
Department does quiet diplomacy, they pass information, they 
gather information, they monitor the cases. But there is no 
advocacy. We need an advocate. We need an advocate. We need our 
State Department to advocate on our behalf. I mean, we do have 
to find our own attorneys, here and in the country of the 
abducting parent where they are taking our children, and we 
don't have an advocate unless we are our own advocate and we 
are our own voice, and then we have to find ways to hire 
attorneys, which most of the time we end up giving up because 
these cases drag on.
    Because there is almost a playbook that these abductors 
have, where they can figure out a way to keep having delays, 
delays, delays in the courtrooms, until finally they get a 
decision that they want. And they appeal every turn that looks 
like they might be losing, or they will just go run and hide, 
and then the judge will say, ``Yes, the child is here. Even 
though they were abducted, the child has been here for so long 
that they are settled. Sorry.'' And it is very, very sad, and 
it is continuing.
    Here is one from Secretary Clinton. This was to commemorate 
National Missing Children's Day in May 2011.

        ``We are committed to preventing child abduction and to 
        helping the children and families caught up in these 
        very complex situations. Our dedicated staff in the 
        Office of Children's Issues work every day to support 
        families and children at risk. We help parents access 
        the tools available to prevent international 
        abductions, such as our Passport Issuance Alert 
        Program.''

    Well, Secretary Clinton deserves credit for addressing this 
issue, but unfortunately the tools her staff has to work with 
are woefully inadequate to bring the majority of these abducted 
children home. Yes, preventing abductions is critical, as Colin 
pointed out, but we cannot give up on these children once they 
have been taken out of the country. Parents don't have the 
resources to fight this battle in two countries on their own. 
They need real advocacy. They need real action. They need the 
commitment and the resolve to bring these children home, not 
platitudes and talk about how much we care.
    I would also like to share a quote from Bernard Aronson, 
former Assistant Secretary of State for Inter-American Affairs, 
from his December 2009 testimony before the Tom Lantos Human 
Rights Commission. Mr. Aronson stated that--and this is very 
key, and we touched on this, too--``a diplomatic request for 
which there are no consequences for refusal is just a 
sophisticated form of begging.''
    The success rate of using the Hague Convention for a left-
behind parent is abysmally low, and the number of abducted 
children is increasing at an alarming rate. The main reason the 
Hague is not working is that there are no material consequences 
for abusing it, and the U.S. has to do more to change that.
    Publishing a list of non-compliant countries does not 
create much incentive for such countries to change their 
behavior, and essentially that is all we are doing. We send a 
list: Non-compliant, compliant, non-compliant, better, almost 
getting there. What is that? That is not going to make a 
country return our children if they don't want to.
    Now let us look at the cases of thousands of American 
children who have been wrongfully removed from the United 
States. Could the U.S. find ways to put pressure on these 
countries to honor their international obligations? Do we trade 
with these countries? Do the leaders of our Government 
understand the difference between a custody dispute and an 
abduction? Do they really want to make the Hague Convention an 
effective treaty to minimize international child abduction? If 
the answer is yes, the case of my son can serve as a blueprint 
for what can and should be done.
    Our newly appointed Secretary of State, John Kerry, is 
intimately familiar with international child abduction, 
specifically the case of Colin Bower's two children who remain 
in Egypt. As a U.S. Senator, Secretary Kerry authored a 
resolution admonishing the Egyptians for their abduction of 
Colin's children, Noor and Ramsay, and advocating for their 
immediate return. He also called on all governments to assist 
in the safe return of children abducted from or wrongfully 
retained outside of the country of their habitual residence.
    Once again, the intentions are good, but there is no action 
to see that these children are returned. We should stop talking 
and start acting. If we are sincere in our desire, as I believe 
you are, Mr. Chairman, as I know you are, and the rest of us 
here, if it is really, really, really that we sincerely desire 
to see our children brought home to their loving families where 
they belong, then let us do something about it.
    At his swearing-in ceremony in February, Secretary Kerry 
made the following remarks:

        ``We can protect children as we did in Africa. We can 
        keep students learning even after an earthquake 
        destroys their schools, as we did in Pakistan. We can 
        help young girls pursue their dreams of education, as 
        we did in Afghanistan and other places in the world.''

    Well, that is what the State Department can do, and should 
do. Certainly, American children are no less deserving of 
protection than children of Africa and other countries. Because 
the problem of IPCA is not being addressed in an effective 
manner, thousands of abducted American children and their 
parents are suffering daily. We can, and need, and should do 
better.
    At a Senate hearing on international child abduction, Vice 
President Biden, then Senator Biden, remarked:

        ``The act of taking a child in violation of a custodial 
        order, whether across state lines or across 
        international borders, is a heinous crime which is 
        extremely heartwrenching, for the parent left behind 
        and for the child affected.''

    These folks are still in office, and their positions have 
heightened. They should step up. We have now a Secretary of 
State, we now have a Vice President, and we know that they 
spoke about it. They know about these cases. Let us call them 
to action. Now is the time. Now is past the time. That was 15 
years ago, and the same holds true today. With the passage of 
time, the only difference between then and now is the names and 
faces of the grieving parents here today before us telling 
their stories. These cases are different, but all too similar 
in so many ways. We are failing these parents and their 
abducted children, again and again.
    If Congressman Smith hadn't traveled with me to Brazil, I 
wouldn't have been able to see my son after more than 4 years 
of being separated because of his abduction. These cases 
typically drag on for months, which soon turn into years, as 
the abductor creates the home field advantage with endless 
appeals and delay tactics in their home country's legal system. 
This is the norm, not the exception. These case are abduction 
cases, and laws have been broken. They are not custody cases.
    Right now, as I sit here, Sarah Edwards, a suffering mom 
whose child, Eli--her son, Eli, was kidnapped to Turkey. She 
sat next to all of us, actually, in 2011, pleading for her 
son's return. It was a black and white abduction case, 
absolutely unquestionable. If you put it in a legal class, 101 
Law, abduction, put her case up. Unquestionably that boy was 
abducted, should be returned. She lost her case. She is there 
in Turkey, right now, as we are here, looking to see her son, 
Eli.
    We failed her. We failed her.
    We are not asking for anything other than the rule of law, 
again, to be followed.
    Let us be clear what we left-behind parents and families 
are asking for. Some people mistakenly believe we are asking 
our Government to intervene in custody disputes. We are not. 
All we are asking is that, when our children are kidnapped to 
thwart a proper resolution of custody, the law governing their 
return to our country is upheld. We Americans proudly proclaim 
that we are a nation of law, not of men. But when it comes to 
the international law that deals with children abducted from 
the United States to other lands, a law embodied in the Hague 
Convention, which our country helped convince other nations 
over the world to adopt, there is no rule of law. And the 
broken lives and broken spirits of left-behind parents across 
American, whom we represent here today, stand as a living 
rebuke to that failure to enforce the rule of law.
    The issue is not whether Ambassador Jacobs and her 
colleagues are trying their best. I have no doubt they are. The 
issue is that, after more than two decades, more than 20 years 
of failure, Ambassador Jacobs and her colleagues still have no 
effective tools to accomplish their objective. They are like 
combat troops sent into battle with no weapons or ammunition. 
The plain fact is that nations who refuse to return America's 
children pay no price for defying the law, and unless we arm 
the State Department with the tools they need to do their job, 
and unless nations who break the law flagrantly and repeatedly 
suffer real consequences, nothing is going to change.
    Nothing is going to change, and we will have another 
hearing in another year or another 2 years, and there will be a 
new line of faces of parents who are just completely broken, 
and their kids remain abroad, abducted, psychologically 
tortured, emotionally battered, and we will be spinning our 
wheels. Hopefully, we will change.
    Thank you.
    [The prepared statement of Mr. Goldman follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you very much, Mr. Goldman. Thank you for 
being an inspiration, I think, to other left-behind parents 
that success can be had. But as you said, herculean efforts, 
even when applied--and Mr. Bowers certainly has had the 
Secretary of State in his corner solidly fighting aren't always 
enough.
    What we are trying to do with the legislation is to make a 
systemic change to empower the diplomats, the executive branch 
and anyone else concerned, who goes country to country, and say 
that this has meaning. You sanction what you care about. If you 
don't care about it enough to sanction it, that sends a very 
clear, unmistakable message to an offending country, especially 
when there is a lack of good will on the part of that country.
    So we are trying--and I know you know this, but I think the 
record needs to clearly state it--to make this a country-to-
country fight, so you don't have David versus Goliath being 
replicated time and time again for Americans.
    And I do believe, I find it disheartening that the 
administration may not support this. I do hope that, if 
presented with the bill, President Obama will sign it. But it 
is value added at the very least. What is it that they would 
oppose? Being much more robust when we deal with non-Hague 
countries? Promoting MOUs so that we have a mechanism, as well 
as with Hague countries, to effectuate positive results?
    I mean, as you pointed out, Mr. Goldman, we have had years 
of ineffective results. Reasonable people will then say we need 
to go back to the drawing board and find some ways of fixing 
it. So I do think, and I do hope, I wish--I did mention it, but 
I will mention it even further now. There is a myth that 
parental abduction is somehow not as egregious as other kinds 
of behaviors. As the author of the trafficking law, and as 
horrific as that is, this is right there, side by side, because 
parental alienation is a horrible outcome for that child. And 
of course, it is cruelty to the left-behind parent as well.
    So I would hope that that myth would be shattered 
immediately, if it is harbored by the Ambassador or anyone 
else, about how bad parental abduction actually is. It is 
awful, and those who have suffered from it, as you have done so 
today, can speak volumes as to what----
    Mr. Goldman. Yes, Mr. Chairman. If I may, I believe--or I 
know it is in our country--parental abduction within our 
borders is a crime punishable by law. As a matter of fact, most 
of the Amber Alert signs that you see are from one parent, a 
non-custodial parent in a divorce that takes the child.
    And I know most of these other countries that I have 
experience with, it is a crime punishable by jail time. So when 
you have domestic parental abduction, it becomes a crime in 
that country, for example Brazil, but when a parent who is a 
Brazilian national takes an American child over to Brazil, all 
of a sudden it is not a crime. And these parents also use the 
Hague Convention as a double-edged sword, because it is civil 
and the parent has nothing to lose. If they go to the court 
here, they have a chance of having to do a shared custody. If 
they go back to their country where they want to go--for 
example, I use Brazil, because that is the one I am most 
familiar with--the worst that they feel will happen is they 
will get sent back to have a custody hearing in the country 
where they abducted the child from.
    So they figure they have nothing to lose. ``Let me give it 
a shot. I will break this guy. I will break him financially, I 
will break him mentally, I will break him emotionally. I will 
create a home court advantage, and go on and on and on,'' and 
the worst that will ever happen is they return the child, they 
return our son, our child, and she will have to come back, or 
he will have to come back, whoever the abductor may be, and go 
through a regular custody hearing.
    So there is no deterrent. There is no deterrent.
    Mr. Smith. You know, an important point, and anything you 
would like to add. Mr. Meadows did want to come back and ask a 
question or two, if he can get here. He is doing a radio 
interview.
    In your testimonies, because you have lived this, you have 
answered most of the questions. And you gave all of us on this 
committee and other Members of Congress the case histories, if 
you will, of why we have to do more and why we have to do it 
immediately.
    But Ms. Philips mentioned a very important point, which all 
of you have done, and she says, ``I know that Sunil Jacob feels 
empowered by the passage of time.'' I think the sense of 
urgency, if we don't have it now, we will never have it. So all 
the more reason why we have got to do more in this Congress, 
this session, within months if not weeks, to get this 
legislation passed.
    So you have given us a lot of ideas. I think the GAO 
report, all those other ideas, Mr. Bower, that you conveyed to 
the committee, we will take every one of them up, look at it, 
see if we can do something with it. I just would yield to Mr. 
Meadows, and then anything you want to say in closing.
    Mr. Meadows. Thank you, Mr. Chairman. And I thank each one 
of you for your testimony and highlighting this issue, and I do 
believe that we have got to remain vigilant, but that we don't 
continue, Mr. Goldman, just to have hearing after hearing after 
hearing. Hearings with actions make sense. Hearings with 
inaction are really a waste of time. And so my commitment to 
the family members here is, we want to find real solutions and 
a real bipartisan way to come up with legislation that gives 
tools, and actually gives them some incentives.
    And so with that, I would like to go to Ms. Apy. If you 
could share, because I know as we were talking earlier and in 
some of the testimony, it sounds like you have got a number of 
years of experience here. And so if you were the Ambassador at 
the State Department, what are some of the things that you 
would like to see that would help out in this situation?
    Ms. Apy. Well, that is a luxurious question, actually. 
First of all, I believe that using the tool of a memorandum of 
understanding, and using diplomatic means to begin to craft 
agreements, both for Hague countries that are having 
difficulties in compliance and reciprocity, as well as non-
Hague countries, would be number one on my list. I know there 
was reference in the Ambassador's testimony about what she 
characterized as unsuccessful MOUs involving Egypt, Jordan and 
Lebanon, and there is some question about whether or not there 
is actually an MOU involving Egypt. There are some access 
agreements.
    But the real issue is that when we have agreements, even 
like in the British agreement with Pakistan, you have a 
situation in which judges that are making decisions know that 
this agreement exists. Parents who are making agreements know 
that this exists. So there is an opportunity to have their 
behavior, the decisions that the court makes, reference this 
agreement. It changes the legal culture. It provides an interim 
step.
    Being able to not only have those agreements, but then be 
able to say, ``We are serious about this, and if we are not 
able to do this by agreement, we are going to have to tell our 
judges,'' American judges, for example, ``that a reciprocal 
agreement does not exist right now. That despite the fact that 
we have entered into the treaty, they cannot rely upon that 
reciprocal relationship until the following things have been 
dealt with.'' That would be one of the first things.
    As I mentioned earlier in my testimony, and I think is 
crucial, the partnership between the Congress of the United 
States, the decisions that you make, and this issue. By knowing 
who in your district has a pending case, and having a non-
defensive response from the Department of State with respect to 
those issues. You should know 15 minutes after they get the 
application that there is a pending case in your district, what 
country is involved, and what the issues are. If law 
enforcement is involved, you should get a list so that you 
know, when you are hearing testimony about dangers in these 
places, about other aspects--that, I think is something that 
lawyers, for example, can't address in the same way that you 
would be able to.
    Additionally, there has been discussion about having 
judicial training and having other means, which go on in any 
event, and they should continue. But being able to represent 
that, on behalf of the United States of America, there are 
positions that need to be taken with regard to these issues, 
and having the Ambassador who is serving in that capacity go to 
Pakistan, or the United Arab Emirates, or Japan, or other 
places in Asia--and we haven't even talked about the number of 
cases there right now, and the number of the countries 
implicated--and be able to sit down and negotiate, identify the 
issues, fine tune those issues for that legal system.
    The other thing is, when our SOFA agreements are being 
negotiated, our Status of Forces Agreements involving American 
servicemembers, if we are putting them in a country we have to 
ask the question as to what protections will be available for 
them. If it is a country that is non-compliant with the treaty, 
or if it is a country that will not provide them remedies with 
respect to child custody disputes, if we are negotiating a SOFA 
agreement we have to sit at the table and say that. And that is 
not being said.
    So again, I could warble on. But those are the things that, 
if I were to identify the things that are the most important, 
that would be what I think is the next level of what we are 
talking about.
    Mr. Meadows. And probably what I would ask of you, if you 
could get to the committee, is really how we address the 
notification process without violating privacy. Because any 
time that we look at this, we have got to look at it in the 
hands of not only those that are well intended, but those that 
perhaps are not. And so I want to be sensitive to the privacy 
side of that, but yet at the same time, if you can come up and 
provide some thoughts on that, since you have experienced that 
on a regular basis, that would be great.
    Ms. Apy. And simply enough, for the purposes of your 
decisionmaking, for example, the information could be provided 
without indicating names and simply giving you the heads-up 
that we have a pending case that has been filed. Because it has 
been filed with the government.
    Mr. Meadows. Right.
    Ms. Apy. ``We have a pending case of an abduction of a 
child from your district out to Country X,'' giving the parent 
the opportunity to expand on that information.
    Mr. Meadows. Well, what about some piece of legislation----
    Mr. Smith. Will my friend yield on that?
    Mr. Meadows. Yes, I would be glad to.
    Mr. Smith. In the appropriations cycle in the last 
Congress, we actually put some language together and got it 
passed in the House. It basically said that the Office of 
Children's Issues will notify a Member of Congress of an 
abduction case, but they would pre-clear it with the family 
member, thereby meeting the obligations of privacy.
    It was not accepted by the Senate, watered down to 
nothingness. But why can't it just be done by OIC on its own? I 
mean, you don't need an authorization by Congress to ask the 
parent, ``Would you mind if we told so-and-so?'' Because that 
parent will then have an advocate who will, when he or she 
travels, when he or she meets with delegations, especially on 
our committee, will say, ``I have someone here in my district, 
and I want to raise that case.'' And then he or she becomes an 
advocate for them.
    Ms. Apy. Well, may I just say, even beyond the advocacy 
piece, which may be within the purview of a parent, the other 
piece is, you are in possession of information and 
decisionmaking that you should know, as you are listening to 
that information and making those deliberations, what the 
status of those issues are involving your district. Without the 
names of the individuals. You wouldn't have to have that.
    Mr. Smith. Right.
    Ms. Apy. The other issue is, the current reporting 
requirements in the existing legislation provide that you are 
to be reported to by the Office of Children's Issues and 
provided an accurate reflection of cases that are in existence. 
And, of course, we have country reports. There have been some 
changes in the way that information has been recently submitted 
to you.
    I need to tell you that the use of that information in the 
practice of family law is extraordinarily important. The judges 
hearing these cases now, requests for access and other 
deliberations, rely upon it. The fact that it is not being 
provided now is--I just don't understand. But parents who don't 
have the ability or the resources to hire international experts 
to testify to judges rely on the information that is provided 
to you to educate judges. We heard about educating judges. That 
is how they know. They look at the information provided to you 
in compliance with the existing statute.
    That information, I understand now, we are not having the 
number of cases in the same way, we are not having--that 
information is crucial to American judges to assess risk of 
removal and to, frankly, be able to apply the law, both the 
substantive law of the state as well as, obviously, the Federal 
law, from both a criminal perspective and, certainly, the Hague 
Abduction Convention. Without that information, it is very 
difficult for a judge to be a country expert on every single 
country.
    And they rely upon that communication, so I would strongly 
urge that, again, in the legislation that is being 
contemplated, and any other deliberations that you will make, 
keep in mind that the information that you receive gets 
disseminated to our judges around the country, across the 
jurisdictions, and it is extraordinarily important for them to 
be able to access it.
    Mr. Meadows. So if we had a congressional liaison that 
would work with these type of cases, to work with some of our 
other colleagues, to inform them and keep this in the 
forefront, is that something that would be useful?
    Ms. Apy. I think it would be extraordinarily useful. I 
think, to the extent that it provides a conduit of information 
by the body that is most familiar, if it is possible to say, 
with how these individual problems can be worked. For example, 
we have been talking about the role of the Justice Department 
in the prosecution issues. Well, that is DOJ, and that is a 
whole--that is an area, though, that having a congressional 
liaison could be able to act in the capacity where it isn't 
always within the bailiwick of the Department of State, very 
frankly.
    Mr. Meadows. Right.
    Ms. Apy. And sometimes that disconnect can mean months or 
years of waiting on the part of parents. Again, having a 
private lawyer make numerous phone calls a day is not a 
practicable answer for many, many people.
    Mr. Meadows. Well, and it is costly. I mean, as you know, 
every phone call that you make--my time is a lot cheaper, I can 
tell you. And so in doing that, we want to be an advocate and 
find a way to do that. But I thank you for your testimony.
    Mr. Goldman, you seemed to agree with what she was saying. 
Would that be fair to say?
    Mr. Goldman. Yes. It is almost like we did have the 
introduction of the Ambassador-at-Large. Anyone who is going to 
almost be an independent liaison or conduit can only help.
    And it is great that Ambassador Jacobs was appointed, but 
she was appointed almost a day before we had another hearing, 
after we already introduced legislation for an Ambassador-at-
Large, almost as another reason--remember, I am not a 
politician. I am just a guy who sees what is going on and says 
it like I see it. Almost as if to say, ``We don't need the 
legislation with the Ambassador-at-Large now, because we have 
this new position.'' And you can see, as history is repeating 
itself, it is failing. So absolutely. Thank you.
    Mr. Meadows. Thank you, and I will close with this for our 
three witnesses. As you see areas that, even though none of you 
to my knowledge, are in my district, if you see areas that 
would be meaningful, please feel free to call our office and 
call on us for suggestions that you might have. And with that, 
I would yield back to the chairman. I thank you.
    Mr. Smith. Mr. Meadows, thank you so very much for your 
questions and for your keen interest.
    Just a quick question to Ms. Philips, if I could. Will 
Sunil Jacob be prosecuted in New Jersey for parental 
kidnapping? Why or why not? And you mentioned in your testimony 
the pre-planning that Sunil Jacob put into the abduction, and 
that the Plainsboro Police investigation showed the involvement 
of three of his friends in the abduction. Has there been any 
legal sanction against the friends for their participation in 
the abduction?
    Ms. Philips. Thank you, Mr. Smith. Yes, the Plainsboro 
Police did have two arrest warrants on Sunil Jacob. One is for 
parental kidnapping, and the other is for interference with 
custody. We have Sergeant Blanchard from the Plainsboro Police 
Station here today.
    And also, they did take actions on one of the friends who 
was in New Jersey. So he was arrested. And what happened later 
is the prosecutor, they had their case open since 2010, and 
there was a Federal arrest warrant on him for unlawful flight 
against prosecution. When the FBI wanted to execute the 
prosecution, they requested the U.S. Attorney's office which 
held the case for about 1\1/2\ years, and then gave the 
decision over to the Middlesex County Prosecutor's Office. And 
the Middlesex County Prosecutor's Office, in February 2013, 
they administratively dismissed the case after keeping it open 
for more than 3 years. And so the Plainsboro Police are going 
to work to file for interference of custody again.
    Mr. Smith. Ms. Apy, what do you think of that? Dismissing 
the case?
    Ms. Apy. It is certainly not limited to New Jersey. It is a 
common problem. And again, part of it is that this is not the 
standard case. It is not the standard type of prosecution. Some 
of our U.S. Attorney's offices are brilliant at it. The U.S. 
Attorney's office in Chicago, for example, has prosecuted a 
number of cases. Once a prosecutor knows how to do it and an 
FBI agency gets used to doing it, you find that you have that 
kind of follow-up. It is like anything else. If it is a job we 
are not used to doing, we kind of--we are not as facile at it.
    One of the concerns is the interjurisdictional fight that 
goes on. The United States Attorney, of course, when evaluating 
these cases, as well as the state courts, look at the expense 
involved. I mean, when you are putting together a case to 
beyond a reasonable doubt, you are talking about having to get 
somebody in India, or the witnesses involved. You know, there 
is that push-back. And there is the context that ``Well, this 
is just a parent. The child is not really in danger.''
    It is consistent and across the board, even in the Dahm 
case that I mentioned in my testimony. Here is a situation 
where orders against leaving, the U.S. Attorney indicts, but 
then they basically do nothing on the case and we have to ask 
them to have another meeting, the FBI doesn't show. When people 
come in from out of state--I mean, it is appalling. And 
ultimately, I think it is a reflection of the systemic story 
that you are hearing, and that is a lack of understanding that, 
not only is it an academic rule of law issue, it is a crime.
    And from the standpoint of deterrence and all the things 
that you all would talk about if we were talking about drug 
trafficking or sex trafficking or other issues----
    Mr. Smith. Child abuse.
    Ms. Apy. Absolutely. Deterrence is one of the primary 
issues. You know, if we are not going to take it seriously--and 
countries know what that looks like when we take things 
seriously--and U.S. Attorneys know that their careers are not 
going to be advanced on a case that is tough if it is not at 
the priority of those watching, then you have to be constantly 
on it, and you have to constantly be asking them what to do 
next.
    Frankly, the latest movement in the Dahm case came because 
I indicated that I was going to be testifying about the case to 
this body, because I am at a loss as to what we can do to 
encourage and inspire the Department of Justice to be active 
and supportive to the victims of these crimes. And by the way, 
a footnote on this. To get the case queued up before the U.S. 
Attorney, it has got to be a good case. They would have dumped 
it. It gets dumped quickly otherwise. If it has been brought 
before--and I champion the U.S. Attorney in Miami for issuing 
the indictments they did. No small feat.
    But there is a huge reluctance across the board. Getting 
them to do it and keeping on it is extraordinarily important. 
And again, your interest for future hearings, or in your 
deliberations, or in dealing with congressional liaison 
contexts, would be to partner with DOJ and make sure that there 
is a seamless application of these issues.
    Mr. Smith. Thank you
    Ms. Philips. Can I add something?
    Mr. Smith. Yes, please.
    Ms. Philips. Also, the FBI was involved when I sent a 
letter to the President, Barack Obama, in 2009. So they are 
willing to go ahead and extradite my children, but they are 
waiting for the approval from the U.S. Attorney's office. And 
when the prosecutor administratively dismissed my case, like 
Mr. Ramisar and Mr. Preston Findlay from the National Center 
for Missing and Exploited Children, they spoke to the right 
people in the prosecutor's office and gave them the right 
information, and told them why this case has to be open. But 
they didn't reopen the case.
    Mr. Smith. Thank you. Anything else before we close?
    Yes, Mr. Bower?
    Mr. Bower. I just had one point I wanted to call out a 
little bit more, and it is the issue of financial burden. I 
think a lot of times we are talking about the politics here, 
and we are talking about legislation here. And a lot of times, 
I know myself, for instance, I have been told I need to retain 
local counsel. And after fighting a fight for 3\1/2\ years on 
multiple fronts I will tell you that local counsel, even in 
Egypt, doesn't come cheap. And particularly not if you are 
going to get the right kind of local counsel that can stand up 
to the various forces in a country like that.
    And I didn't know whether or not there were mechanisms for 
USAID or through their funding of certain NGOs locally that 
might be considered or put in place that would allow that 
financial burden for families like ours to be eased a little 
bit. And I just heard reference to it, and I don't think that 
we had really talked about it. I know I hadn't before, but I 
think it is an important issue, and I just wanted to bring it 
up to you before we close, Mr. Chairman.
    Thank you.
    Mr. Smith. Thank you, Mr. Bower.
    Mr. Goldman. And a couple more things. I am sure we can 
keep going and going, because there are always more issues. One 
thing Ambassador Jacobs said is that she considered sanctions 
as extortion, and I liked how Mr. Meadows put it, maybe not 
sanctions, but incentives. I mean, if it has to be a play on 
words to get something going, you return our children and here 
is an incentive for returning our children. Maybe that is how 
we can get it in somehow in a positive way.
    And the other thing that is also disturbing is, she was 
appointed as somebody to monitor and work with these cases 
solely as her position, and doesn't see international child 
abductions as a heinous crime. Doesn't even put them on the 
same playing field as human trafficking and those other things 
that we have laws about. And I think that is quite alarming, 
too.
    I just wanted to make that point. Thank you.
    Mr. Smith. I appreciate that. Thank you. And I would agree. 
That is why I spoke of the myth that somehow child abduction by 
a parent means ``that child is now in safe hands.'' It is a 
terrible myth, and the science that even led to the Hague 
Convention itself, the psychological data about what parental 
alienation does and the consequences for that child, it just 
shatters that myth. So you know, the act of abducting puts is 
just like child abuse. You wouldn't say, ``Well, at least the 
child is in good hands, even though he or she is getting beaten 
every day by a child abuser.'' And this is a pernicious form of 
child abuse.
    Mr. Goldman. Absolutely.
    Mr. Smith. So I do thank all of you for your testimonies. 
It will be very helpful as we move to markup on the 
legislation, which I suspect will be opposed at least at some 
level, by the administration, as was every other human rights 
bill I have ever seen go through this body. I exaggerate a 
little, but that has been true for the ones I have worked on. 
But we will persist, and it will be bipartisan, I can assure 
you, because there is good buy-in from both sides of the aisle 
on the need to do this now.
    So I thank you, and the hearing is adjourned.
    [Whereupon, at 2:05 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


              <F-dash>\<Hoarfrost><acctof><careof>t<star> 
                      <because><F-dash><Register>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



      <F-dash>\\<box>a<star><pound>ws <because><F-dash><Register>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
